      FISCAL YEAR 2007

 MEDICARE-ELIGIBLE RETIREE
     HEALTH CARE FUND

AUDITED FINANCIAL STATEMENTS

                    November 30, 2007
              DoD
   MEDICARE-ELIGIBLE RETIREE
       HEALTH CARE FUND
        FISCAL YEAR 2007
 AUDITED FINANCIAL STATEMENTS



                  Table of Contents


Management’s Discussion and Analysis…….........………….….…1

Principal Statements…………………………...…………….……25

Notes to the Principal Statements……..……………………..……30

Other Accompanying Information……………………………..….51

Independent Auditors’ Reports………………………………..…..53
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND



     MANAGEMENT’S
      DISCUSSION
         AND
       ANALYSIS




            1
______________________ Management’s Discussion and Analysis

         DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
              MANAGEMENT’S DISCUSSION AND ANALYSIS

                  YEARS ENDED SEPTEMBER 30, 2007 AND 2006


Description of the Reporting Entity

The reporting entity is the Department of Defense (DoD) Medicare-Eligible Retiree
Health Care Fund (the “Fund” or MERHCF). The FY 2001 National Defense
Authorization Act (NDAA) directed the establishment of the Medicare-Eligible Retiree
Health Care Fund to pay for Medicare-eligible retiree health care beginning on October 1,
2002. Prior to this date, care for Medicare-eligible beneficiaries was financed through
annual Congressional appropriations for space available care in Military Treatment
Facilities (MTFs). The Fund covers Medicare-eligible beneficiaries, regardless of age.
In the context of the Fund, hereafter the term “Medicare-eligible beneficiaries” is used to
refer to Medicare-eligible beneficiaries who are related to retirees (i.e., retirees
themselves, dependents of retirees, and survivors).

The NDAA also established an independent three-member DoD Medicare-Eligible
Retiree Health Care Board of Actuaries appointed by the Secretary of Defense. The
Board is required to review the actuarial status of the Fund; to report annually to the
Secretary of Defense, and to report to the President and the Congress on the status of the
Fund at least every four years. The DoD Office of the Actuary provides all technical and
administrative support to the Board.

Within DoD, the Office of the Under Secretary of Defense (OUSD) for Personnel and
Readiness (P&R), through the Office of the Assistant Secretary of Defense (OASD) for
Health Affairs (HA) TRICARE Management Activity (TMA), has as one of its missions
operational oversight of the Defense TRICARE Health Delivery System, including
management of the Fund. TMA management responsibilities include accounting for,
documenting, and projecting annual budget distribution requirements (both purchased
care claims demands and MTF prospective payments for anticipated care provided in the
direct care system), oversight of claims processors, monitoring/management of the
Improper Payments Information Act, and preparation of financial statements and
footnotes. The Defense Finance and Accounting Service (DFAS) provides accounting
and investment services for the Fund.

In Fiscal Year (FY) 2007, the Fund initially authorized approximately $7.7 billion (B) in
total health care services, civilian providers ($5.9B), military medical treatment facilities
($1.4B), and Military Service Personnel Accounts ($0.4B), on behalf of Medicare eligible
retirees, retiree dependents, and survivors. Subsequently, approval was obtained from the
Office of Management and Budget (OMB) to increase FY 2007 apportionment authority
by an additional $30 million (M) for projected increased purchased health care services
and $650 thousand for the mandatory mailing of letters to Medicare-eligible beneficiaries
explaining the availability and features of the Medicare Part D, Voluntary Pharmacy



                                                                                           2
______________________ Management’s Discussion and Analysis

Benefit Program. In FY 2006, the Fund initially authorized approximately $7.2B in total
health care services, civilian providers ($5.5B), military medical treatment facilities
($1.3B) and Military Service Personnel Accounts ($0.4B), on behalf of Medicare eligible
retirees, retiree dependents, and survivors. An additional purchased care requirement of
$150M was identified and approved by OMB in early September 2006 in support of
increased utilization, particularly pharmacy services, above projected demand.

                  Final Fiscal Year Requirements and Funding Plan

                                     Operations &         Military
                  Purchased Care                                             Final
  Fiscal Year                        Maintenance         Personnel
                    (Billions)                                             (Billions)
                                      (Billions)         (Billions)
     2007               $5.9            $1.4                $.4               $7.7
     2006               $5.5            $1.3                $.4               $7.2

The Fund receives income from three sources:
   1. An annual Treasury payment made on behalf of the Services at the beginning of
      the year based on average budgeted force strengths.
   2. Annual payments from the Treasury to amortize the unfunded liability, and
   3. Investment income.

During the last two years of the Fund’s operation, income was received from the
following sources:

                               MERHCF Funding Sources

                       Treasury Unfunded
                                                 Normal Cost             Interest on
                       Actuarial Liability
    Fiscal Year                                  Contribution           Investments
                        (UAL) Payment
                                                  (Billions)              (Billions)
                           (Billions)
       2007                  $15.6                  $11.5                  $4.4
       2006                  $16.6                  $11.1                  $4.1

No accounts of the Fund have been excluded from the Fund’s financial statements.

Medicare-Eligible Retiree Health Care Plan of Benefits

If beneficiaries age 65 and over cannot obtain care in a military medical treatment
facility, they can receive essentially no charge civilian care through the TRICARE for
Life (TFL) program. With this program TRICARE serves as the final payer for Medicare
covered benefits, and first payer for TRICARE benefits that are not covered in the
Medicare or Other Health Insurance programs.

TFL covers Medicare-eligible retirees 65 years of age or older, including retired
guardsmen and reservists and Medicare-eligible family members and survivors. A
beneficiary must be eligible for Medicare Part A and enrolled in Medicare Part B. The


                                                                                        3
______________________ Management’s Discussion and Analysis

Medicare-eligible retirees and family members of the non-DoD Uniformed Services
(Coast Guard, Public Health Service, and National Oceanic and Atmospheric
Administration) are also eligible for these benefits.

The TRICARE Senior Pharmacy Program authorizes eligible beneficiaries to obtain low-
cost prescription medications from the TRICARE Mail Order Pharmacy (TMOP) and
TRICARE network and non-network civilian pharmacies. Beneficiaries may also
continue to use military hospital and clinic pharmacies, at no charge. The pharmacy
program is available to beneficiaries age 65 and over.

Finally, DoD beneficiaries, including Medicare-eligible beneficiaries, in specific
locations where Uniformed Services Family Health Plan (USFHP) facilities are available,
may enroll in capitation rate plans. These plans include inpatient and outpatient services
and a pharmacy benefit. The capitation rate is paid by DoD. Beneficiaries who choose
enrollment in these plans are ineligible for care in MTFs as well as benefits under the
TRICARE for Life and Senior Pharmacy programs.

Health Care Purchased From Civilian Providers

In accordance with Department of Defense Instruction (DoDI) 6070.2, “Department of
Defense Medicare Eligible Retiree Health Care Fund Operations,” dated July 19, 2002,
the TMA reports daily obligations to the Fund for purchased care provided in the civilian
sector. Daily claims are validated by the voucher edit procedures required by the
TRICARE/CHAMPUS Automated Data Processing Manual 6010.50-M, dated May
1999, to ensure that only costs attributable to Medicare-eligible beneficiaries are included
in payments drawn from the Fund.

At the end of each month, claims processing costs are reconciled against monthly
distribution estimates and any over and/or under charged amounts are applied to the
estimated requirement for the following month. During the month of September, as fiscal
year-end approaches, more frequent reconciliation between charged accounts and
available funds may occur and processing can continue up to a predetermined cut-off date
established by TMA in coordination with DFAS.

TMA reports obligations to the Fund for the estimated USFHP obligation amount based
on the contract-specific capitation rates for Medicare-eligible beneficiaries enrolled for
each USFHP hospital contract option period twice per year, upon the commitment of
funds and prior to the start of the option period. Each USFHP hospital’s reported
enrollment is used to reconcile contracted enrollment estimates for Medicare-eligible
beneficiaries. At the end of each option period, total charges are reconciled against the
estimate and any over and/or under charged amounts are applied to the estimated
requirement for the following option period.

At the beginning of each Fiscal Year, a new Funding Authorization Document for the
TFL/TRICARE Senior Pharmacy purchased care expenditure limit is provided to the
TMA Contract Resource Management (CRM) Division. By agreement with DFAS,



                                                                                             4
______________________ Management’s Discussion and Analysis

disbursement transactions are provided by email the day prior to payment processing.
DFAS uses these estimates to ensure sufficient funds are available for payment from the
Fund for daily transactions. The purchased care payments planned for FY 2007 were
approximately $5.9B as compared to $5.3B in FY 2006.

TMA uses a TRICARE Dual Eligible Fiscal Intermediary Contract (TDEFIC) awarded to
Wisconsin Physician Services (WPS) for purposes of processing all claims supported by
the Fund, regardless of geographic region in which care was received. Dual eligibility
refers to health care users who are both DoD beneficiaries (retired, dependents of retired,
and survivors) and Medicare-eligible beneficiaries. Having a single Fiscal Intermediary
(FI) to process all dual-eligible claims ensures greater confidence in uniformity and
consistency of claims adjudication. Further, cost savings are realized with the claims
administrative processing fees. The TDEFIC contract stipulates a cost of $1.31 per unit
for electronic claims and $3.93 for paper claims.

Payment For Health Care Provided In Military Medical Treatment Facilities (MTF)

TMA annually develops prospective payment amounts for care estimated to be provided
in MTFs to Medicare-eligible beneficiaries. The prospective payment amounts are
calculated for each MTF and include both Military Personnel (MILPERS) and Defense
Health Program (DHP) Operations and Maintenance (O&M) costs. TMA provides a
memo to DFAS-Indianapolis (DFAS-IN) with the payment amounts by Service for
MILPERS and DHP O&M that is reported on the Standard Form 1081, Voucher and
Schedule of Withdrawals and Credits by DFAS-IN.

The prospective payment amounts are based on costs reported by the MTF’s Medical
Expense and Performance Reporting System (MEPRS) and patient encounter data for the
most recent fiscal year for which data is complete at the time the calculations are
prepared. TMA develops, in coordination with the Military Departments and Office of
the Under Secretary of Defense (Comptroller) (OUSD(C)), MTF-specific rates in
accordance with DoDI 6070.2, dated July 19, 2002. MEPRS cost data are recorded
separately for MILPERS and O&M components per clinical workload. These amounts
are inflated to the year of execution using service-provided budget data, and standard
OMB inflation rates listed in the President’s Budget applicable to those years. MEPRS
data is recorded and maintained by the Military Departments in accordance with DoD
6010.13-M, “Medical Expense and Performance Reporting System for Fixed Military
Medical and Dental Treatment Facilities,” dated November 21, 2000.

OUSD(C) distributes MTF prospective payment amounts based on the calculated annual
total program amount to the Military Departments for MILPERS costs and to TMA for
DHP O&M costs. TMA, in turn, distributes DHP funds to the Military Departments for
execution. OUSD(C) includes financial authority in the DHP Expense Operating Budget
to finance the annual financial plan requirement of the prospective payment.

When the year of execution is completed and the associated workload and cost data are
available, TMA conducts an execution review in coordination with OUSD(C) and the



                                                                                          5
______________________ Management’s Discussion and Analysis

Military Departments. A comparison of prospective payment amounts to actual workload
and costs is accomplished in accordance with DoDI 6070.2, dated July 19, 2002.

The prospective payment for O&M for MTF provided care to Medicare-eligible
beneficiaries in FY 2007 was $1.4B versus $1.3B in FY 2006. The increases in O&M
expenditures were primarily due to increased drug costs and higher utilization of
outpatient pharmacy services. While the cost of inpatient and outpatient services has
risen slightly, the utilization of these services has declined slightly. The prospective
payment for MILPERS expenditure for care provided in the MTFs to Medicare-eligible
beneficiaries in FY 2007 was $0.42B versus $0.43B in FY 2006.

Performance Measures

The mission of the Fund is to finance, on an actuarially sound basis, liabilities of the DoD
and the uniformed services health care programs for specific Medicare-eligible
beneficiaries. There are many ways to measure the funding progress of actuarially
determined accrual funds. The ratio of assets in the Fund to the actuarial liability is a
commonly used fund ratio. As of September 30, 2007, the Fund had net assets available
to pay benefits of $107.5B and an actuarial liability of $516.5B; the funding ratio was
20.9%. As of September 30, 2006, the Fund had net assets available to pay benefits of
$83.7B and an actuarial liability of $538B; the funding ratio was 15.6%.
Notwithstanding the effect of other actuarial gains and losses that will occur over time,
this ratio is expected to reach 100% once the initial unfunded liability is fully amortized
in accordance with a schedule set by the Board of Actuaries. The 50-year amortization
period for the initial unfunded liability is scheduled to end in FY 2052.

Types of Investments

The Fund receives investment income from a variety of Treasury-based instruments such
as bills, notes, bonds and overnight investment certificates. Treasury bills are short-term
securities with maturities of less than one year issued at a discount. Treasury notes are
intermediate securities with maturities of one to ten years. Treasury bonds are long-term
debt instruments with maturities of greater than ten years. Overnight certificates are
interest-based market securities purchased from the Treasury that mature the next
business day and accrue interest based on the Federal Reserve Bank of New York survey
of reserve repurchase agreement rates.

The Fund also invests in Treasury Inflation Indexed Securities (TIIS) also known as
Treasury Inflation-Protected Securities (TIPS), which are indexed for inflation.
TIIS/TIPS are fixed-rate instruments designed to protect against inflation, and the
principal amount is indexed to the consumer price index (CPI) by adjusting the CPI at
issuance to the current CPI; as inflation increases, so does the principal amount and the
coupon.

All of these instruments are debt obligations of the U.S Government and are backed by
the “full faith and credit” of the federal government. Debt obligations of the U.S.



                                                                                            6
______________________ Management’s Discussion and Analysis

Government have virtually no risk of nonpayment of principal and interest at the
specified due date.

The Fund receives management oversight from the Department of Defense Investment
Board established in September 2003. The members of the Investment Board are the
Director, Defense Finance and Accounting Service; the Deputy Chief Financial Officer,
Office of the Under Secretary of Defense (Comptroller); and a senior military member,
currently the Vice Chief of Naval Operations. The Investment Board met in FY 2007 and
considered investment objectives, policies, performance and strategies with the goal of
maximizing the Fund’s investment income. The Board reviews the Fund’s Law and
Department of Treasury guidelines to ensure that the Fund complies with broad policy
guidance and public law. The Board reviews current cash flow needs of the Fund and
invests excess funds to match the duration of the assets with the duration of the liability.

Improper Payments Information Act

The Improper Payments Information Act of 2002, as implemented by the Office of
Management and Budget, requires federal agencies to review all programs and activities
annually and identify those that may be susceptible to significant erroneous payments.

The Department of Defense reports its progress in reducing erroneous payments to both
the President and the Congress. The Department's FY 2006 review did not identify any
programs or activities at risk for “significant erroneous payments” in accordance with the
Office of Management and Budget’s criteria (i.e., programs with erroneous payments
exceeding both $10 million and 2.5 percent of program payments). For FY 2006, the
Department reports on three high risk programs: military health benefits, military
retirement, and military pay.

Risk Assessment

The Department reviewed all of its programs and activities and determined that six
programs/activities were susceptible to improper payments: Military Retirement, Travel
Pay, Military Health Benefits, Military Pay, Civilian Pay, and Commercial Pay. These
programs represent approximately 86 percent of the Department’s total payments. The
Department of Defense performed risk assessments for each of these programs/activities
that addressed the strength of the internal controls in place to prevent improper payments
(such as prepayment reviews), system weaknesses identified internally or by outside audit
activities, voluntary returns of overpayments by vendors, etc.

Statistical Sampling

Military Health Benefits, TRICARE is a triple option health benefit plan available for
active duty family members, retirees and their family member and family members of
deceased service members. To determine the statistically valid estimate of the annual
amount of improper payments, the Department uses the following sampling methodology
to pull encounter data records for the annual target health care cost audits of the managed
care support services contracts.


                                                                                          7
______________________ Management’s Discussion and Analysis


For each contract option period, statistically valid samples of claims with care end dates
within the specified option period are selected for payment error auditing. Payment
samples are stratified at multiple levels within the $100 to $100,000 range variable
sampling using stratified sampling with optimum allocation to calculate the sample size
for the payment errors.

To determine the statistically valid estimate of improper payments for quarterly claim
audits, the Department pulls TRICARE encounter data records for claims processed by
the managed care support contractors and the Medicare dual eligible contractor. Claims
with a cost less than $100 are not sampled (except for Medicare dual eligibility claims).
One sample category includes all claims $100,000 and more. Claims with a cost of
greater than $100 but less than $100,000 are broken down into 12 sample categories. A
formula is applied to calculate the sample size for each sample category. If the sample
category universe count is less than 30, all the claims in that category are audited. The
percentage of overpayments for the sample is applied to all the payments to determine the
improper payment amounts.

Corrective Action Plans

For many years, the Department has maintained contracts with payment performance
standards for military health benefit claims processing. Zero tolerance is tied to the
annual audit in that any overpayment found in the audit process is projected to the audit
universe, and the managed care support contractor is liable. Zero tolerance is also tied to
the quarterly audits in that any overpayment found in the audit process is the
responsibility of the TDEFIC and managed care support contractors, both of whom are
responsible for any overpayments. This contractual design provides a built-in incentive
for contractors to continually perfect their claims processing system, up to the point
where financial costs outweigh the benefits. Quarterly performance audits are also
conducted wherein the contractor is required to meet the 2 percent performance standard.
If that standard is exceeded, a monetary performance withhold is assessed.

Quarterly, the Department audits statistically valid samples that over the years have
consistently produced an error rate of less than the 2 percent performance standard
contained in the TRICARE contracts. Errors in health care claims processing can be
potentially related to improperly submitted claims by the provider community, as well as
a minimal degree of human error expected with handling a large volume of claims under
the tight time parameters established by the prompt payment regulation and the claims
processing timeliness performance standard. Based on the projected FY 2007 survey,
the FY 2007 improper payment rate for the military health benefits is projected to be
$156.0 million or 2.0 percent.

Numerous prepayment and post-payment controls are built into the military health
benefits' claims processing system to minimize improper payments. Every TRICARE
claim is adjudicated against this system of checks and balances. The managed care
support contractors are required to utilize specialized software containing specific
auditing logic designed to ensure appropriate coding on professional service claims and


                                                                                             8
______________________ Management’s Discussion and Analysis

eliminate overpayments. The software does not set coverage/benefit policy; it merely
audits claims for appropriate code combinations. For calendar year 2006, the prepayment
automated software used by managed care contractors accounted for approximately $268
million in cost avoidance for the TRICARE program (MERHCF subset data is not
available).

Another control is the prepayment review required under the TRICARE contracts. The
contractors use this strategy to prevent payment for questionable billing practices.
Prepayment review allows for a closer examination of the services rendered and may
require the provider to submit medical documentation to support the services billed. In
calendar year 2006, prepayment review resulted in a cost savings of $10.1 million
(MERHCF subset data is not available).

In Calendar Year 2006, fraud judgments for TRICARE based on intervention by
Department of Justice were ordered for $36.7 million. This included a large settlement
with Tenet Healthcare Corporation for over $20 million. In addition, the Department
requires each contractor to have a fraudulent claims investigation or anti-fraud unit to
identify and investigate any pattern of suspicious or potential fraudulent billings.
Recoupments resulting from cases identified, combined with proactive case work by
TRICARE, has resulted in another $5.3 million being identified for administrative
recoupment. These judgments and recoveries are benefit dollars returned to the
program (MERHCF subset data is not available).

For FY 2006, the error rate for the MERHCF and the TDEFIC contract was 1.98%, under
the 2% contract standard and in compliance with the IPIA.

Status of FY 2006 Audit Findings

Our independent auditors noted material weaknesses and other discrepancies during the
conduct of the FY 2006 Financial Statement Audit. The material weaknesses center
around three issues:
   1. The lack of a patient-level cost accounting system
   2. Insufficient evidence that adequate controls exist and have been implemented to
       ensure the timeliness and accuracy of the medical record coding processes at the
       MTFs, and
   3. Inadequate systems integration testing of TRICARE Encounter Data System
       (“TEDS”) implementation, resulting in a Purchased Care Claims backlog

At issue with the lack of a patient-level cost accounting system is the fact that the
actuarial liability for Medicare-eligible retiree benefits as of September 30, 2007 and
2006 includes approximately $75B (14% of total) and $83B (15% of total), respectively,
of amounts reflecting the actuarial present value of the projected direct-care costs of
benefits to be provided by the MTFs to eligible participants in the Fund. Additionally,
the reported amounts of program revenues and cost for the year ended September 30,
2007, include approximately $3.7B and $1.8B, respectively, and for the year ended
September 30, 2006, include approximately $4.0B and $1.7B, respectively, of amounts



                                                                                           9
______________________ Management’s Discussion and Analysis

related to direct care costs. Such MTF-related amounts of direct-care costs are estimated
by the Fund’s actuaries using data extracted from various service-specific financial,
personnel, and workload systems within DoD. With respect to extracted data, the MTFs
do not have compliant, transaction-based accounting systems and, therefore, cannot
report the costs of an individual patient’s care.

True patient-level cost accounting systems are currently not available within TRICARE.
In lieu of such a system, the DoD has developed the cost allocation tool, MEPRS, which
enables our MTFs to allocate all costs associated with the daily operation of the facility
into the inpatient, outpatient, dental, and ancillary service cost centers. Average costs per
weighted workload unit can then be computed for various patient care activities.

These average costs per weighted workload unit are then applied to specific care
provided to specific patients by reviewing the Standard Inpatient Data Record (SIDR)
and Standard Ambulatory Data Record (SADR) reported in the MHS Data Repository
(MDR). The SIDRs and SADRs are prepared for each patient encounter and contain
patient-specific information, to include name, Social Security Number, sponsor or
dependent status, and Medicare eligibility. Further, the SIDRs and SADRs reflect the
diagnosis and any procedures that were performed on the patient for that specific
encounter. The average costs per weighted workload unit computed in MEPRS is then
applied against the specific data contained in the SIDRs and SADRs to determine an
average cost for the specific care provided to a specific patient. Estimates of the
weighted workload that will be provided to Medicare-eligible beneficiaries are calculated
for each MTF based on historical experience. When the weighted workload costs are
applied against the projected workload volume for each MTF, a prospective payment
distribution plan can be computed for each MTF for the next fiscal year.

While inpatient and ambulatory encounter costs are weighted at the MTF level as
described above, MTF outpatient pharmacy costs represent the largest cost driver for
actuarial liability. The reconciliation tasks performed by TMA management’s support
contractor have also assessed and documented the operation of Pharmacy Data
Transaction Service (PDTS), data to support both the prospective payment and
calculation of the actuarial liability. DoD Pharmacy Program Office and TMA
management are in the process of developing an RxCOTS pharmacy system as part of the
Armed Forces Health Longitudinal Technology Application. The RxCOTS will interface
both with the Defense Medical Logistic Standard Support (DMLSS) system and PDTS.
The RxCOTS patient-level interfaces will improve PDTS accuracy of the ingredient costs
of pharmaceuticals issued at MTF outpatient pharmacies.

The prospective payments made to the MTFs are reconciled with actual workload activity
after the close of the fiscal year. The results of the reconciliation are used to adjust
projections of MTF workload levels and costs for the future prospective payment
distribution plan. The results of the reconciliation will not be used to make adjustments
to the current prospective payment distribution plan either during execution year
activities or to a specific distribution subsequent to the close of the fiscal year’s
operation.



                                                                                          10
______________________ Management’s Discussion and Analysis


Issues with the prospective payment process include validating/reconciling financial data
prior to its input into the MEPRS cost allocation process, archiving MEPRS data at the
close of each month, and reconciling in a timely manner the fiscal year prospective
payment plan.

Actions Taken

Since FY 2003, when the Fund was established, MERHCF management has attempted to
resolve the auditor-identified material weaknesses through the development of key
milestone initiatives. These initiatives were established and managed by TMA leadership
and intended to serve as work-arounds to address the Military Services’ financial
systems’ deficiencies. The material weaknesses are associated with computation of that
portion of the MERHCF health care liability involving the care provided to Medicare-
eligible beneficiaries in the MTFs. Disappointingly, the milestone initiatives have not
produced the desired results in the projected time frame. Clearly, each of the Military
Services must become more actively involved in the resolution of the identified
weaknesses. We have initiated coordination with the DoD Comptroller Financial
Improvement and Audit Readiness (FIAR) Office to engage the Military Services in
better defining their required corrective actions and assuming more direct responsibility
in resolving the material weaknesses. Each of the Military Services will incorporate into
their existing FIAR plans key milestones to correct the auditor-identified deficiencies
associated with coding of medical records and the accurate documentation of costs to
support the delivery of health care to Medicare-eligible beneficiaries in MTFs.

Computation of Incurred Claims Reserve

The actuarial determination of the Fund’s liability for Incurred But Not Reported (IBNR)
claims for purchased care for the Fund’s beneficiaries relies on data files provided by
TMA to the DoD Office of the Actuary (OOA). Due to the lack of a fully integrated
financial management system to support the Defense Health System, certain data is
provided to OOA from health care operational sources, rather than from the accounting
and financial records of claims payment activity.

The Contract Resource Management (CRM) Division in Aurora, Colorado, monitors
claims processing activities performed by the TDEFIC fiscal intermediary, WPS, in
support of purchased care activities for Medicare-eligible beneficiaries. During FY 2004,
CRM transitioned to a new claims documenting database. The transition process resulted
in claims processing discrepancies that generated significant claims processing backlogs
in the last quarter of FY 2004 and the first quarter of FY 2005 (aggregating
approximately $133M). Consequently, the IBNR calculation as of September 30, 2004,
was understated due to the missing claims data, and no update to the IBNR calculation
for the first quarter of FY 2005 could be made. Estimates for the remainder of FY 2005
included a substantial margin of conservatism due to the concerns about the accuracy and
completeness of the underlying claims data. The backlog of claims has been
subsequently resolved, and all appropriate claims data has been included in the



                                                                                       11
______________________ Management’s Discussion and Analysis

calculations of IBNR as of September 30, 2006. However, we were not able to quantify
the complete budgetary and proprietary accounting effects of the backlog on the
MERHCF financial statements for FY 2004, FY 2005, and FY 2006, respectively.

To better monitor purchased care claims processing and mitigate the potential for an
undetected large increase in claims backlogs occurring in the future, MERHCF
management has developed a purchased care claims backlog metric to report quarterly to
OUSD(C).

Each quarter the MERHCF estimates the IBNR purchased claims liability. IBNR
represents health care received by Medicare-eligible beneficiaries for which DoD has not
yet received a bill. The purchased care claims processing metric monitors the
completeness of the data used for the IBNR liability calculation. The metric is calculated
by dividing the liability from claims on hand that is actually used in the IBNR calculation
(without any backlogged claims) by the liability that includes any claims that were
backlogged at the time of the IBNR calculation.

By their nature, IBNR calculations need regular or typical data. The data does not
necessarily have to be 100 percent complete, but the data must have a large percentage of
claims included, and most importantly, the degree of incompleteness should remain
relatively constant over time. The IBNR metric guards against the very large,
unpredictable backlogs that DoD experienced in FY 2004 and early FY 2005.

The goal is to ensure the IBNR calculation is based upon no less than 85% of the liability
contained on all processed and backlogged claims. It is anticipated that 8% to 12% of
available monthly claims will not be included in the IBNR calculation due to the cutoff of
processed claims by 10:00 am on the last business day of the month. The cutoff was
established to ensure IBNR calculations could be completed in time to meet reporting
requirements. For the close of FY 2006 and again in FY 2007, the IBNR calculation
included 100% of available monthly claims.

Coast Guard Issue

The determination of the amount of funds to be provided by the MERHCF to the Coast
Guard for care provided in their clinics to Medicare-eligible beneficiaries remains an
open issue. In FY 2004, Coast Guard representatives presented to the MERHCF Audit
Committee an annual requirement of approximately $2.5M. This estimate was based on
historical budget reports and average costs for MERHCF patients seen in their clinics and
for prescribed medications from their pharmacies.

The MERHCF Audit Committee questioned the rationale of the assumptions and
computations used to project the annual requirement and asked the Coast Guard Inspector
General (CGIG) to review and approve the cost estimate methodology and funds request.
Further, the MERHCF Audit Committee requested a formal written request for funds
signed by a senior Coast Guard official once the methodology was reviewed and
approved by the CGIG.



                                                                                        12
______________________ Management’s Discussion and Analysis


Through FY 2006 and FY 2007, the Coast Guard and the CGIG were in the process of
developing an acceptable methodology for the computation of MERHCF funding
requirements to support Coast Guard MTF care given to Medicare dual-eligible
beneficiaries. The MERHCF Audit Committee will not approve the release of MERHCF
funds to Coast Guard clinics until a formal written request is submitted with CGIG
approval.

Legislative Proposals

The 2007 National Defense Authorization Act (NDAA) included several relevant
sections concerning the MERHCF. Section 592 of the Conference Report, “Revision in
Government Contributions to Medicare-Eligible Retiree Health Care Fund,” excluded
from the term “members of the uniformed services on active duty” cadets at the United
States Military Academy, the United States Air Force Academy, or the Coast Guard
Academy or Midshipmen at the United States Naval Academy. This change, other things
being equal, will reduce the Board of Actuaries annually calculated normal cost
contribution and the health care liability. The elimination of cadets and midshipmen
from the calculation of the active duty portion of the normal cost contribution and the
health care liability will take effect beginning with FY 2008.

Section 708(b) of the 2007 NDAA Conference Report directed the Secretary of Defense
to transfer $186M from the un-obligated balances of the National Defense Stockpile
Transaction Fund to the DoD Medicare-Eligible Retiree Health Care Fund.

Pharmaceutical Refunds for Retail Pharmacy Support

The Veterans Health Care Act (VHCA) of 1992, codified at 38 U.S.C., 126, established
federal ceiling prices (FCP) of covered pharmaceuticals (requiring a minimum 24%
discount off non-Federal average manufacturing prices (non-FAMP) – non-FAMP
procured by the four designated agencies covered in the Act: Department of Veterans
Affairs (VA), DoD, Coast Guard, and the Public Health Service/Indian Health Service.
VA administers the VHCA discount program on behalf of the four specified agencies.
Under the Federal Supply Schedule (FSS) program (41 U.S.C., 259(b)(3)(A)), the
General Services Administration (GSA) has authorized VA to award and manage
schedule contracts with pharmaceutical companies. FSS contracts allow Federal agencies
to obtain pharmaceuticals at prices associated with volume buying which, at times, may
be lower than FCPs under VHCA. DoD currently has access to FCP and FSS prices for
pharmaceuticals used in MTFs and the TRICARE Mail Order Pharmacy (TMOP)
program by either direct purchases or procurements through a Defense Supply Center
Philadelphia Prime Vendor. Federal prices were not available to DoD through retail
pharmacies under the previous at-risk TRICARE Managed Care Support Contracts
(MCSCs) because the VA had determined the contracts were not structured to meet the
VHCA statutory requirements for an agency-controlled centralized commodity
management system.




                                                                                    13
______________________ Management’s Discussion and Analysis

The new TRICARE Retail Pharmacy Program carved out retail pharmacy from the
MCSCs, consolidated delivery of retail prescriptions under a single Pharmacy Benefits
Manager (PBM) contract, and addressed VA’s previous concerns under VHCA. The
PBM contractor provides a retail pharmacy network and acts as fiscal intermediary, upon
TMA authorization, to issue funds from a government account in payment for
prescriptions dispensed to TRICARE beneficiaries.

                                         Discussion

In May, 2004, the VHCA was applied to the TRICARE Pharmacy Benefits Program,
specifically, for beneficiaries obtaining covered pharmaceuticals from retail pharmacies.
The retail pharmacies obtain the drugs they dispense at non-discounted prices. The
mechanism for payment involved a “Dear Manufacturer” letter sent to the pharmaceutical
manufacturers. The letter required that these manufacturers calculate a discount rate and
pay refunds to DoD for covered drugs purchased at network pharmacies. The letter
demanded refunds as of September 30, 2004.

The Coalition for Common Sense in Government Procurement requested legal review of
that letter, and the VA agreed to postpone enforcement pending judicial review. While
enforcement was stayed during judicial review, some manufacturers made voluntary
refunds to DoD during this time period. As of August 31, 2006, the MERHCF had
received $23.6M in FY 2005 and $30.2M in FY 2006. These refunds are identified by
fiscal year and specific pharmaceutical manufacturer.

By decision dated September 11, 2006, the Court of Appeals for the Federal Circuit set
aside the “Dear Manufacturer” letter and, on procedural grounds, ruled against the
government’s position in the federal drug pricing litigation. The Court held that the
action taken by the VA in determining the revised TRICARE Retail Pharmacy program
qualified for federal ceiling prices was in the nature of a substantive regulation and that it,
therefore, should have been issued for public comment before it was adopted. The Court,
thus, set it aside and remanded the matter to the VA for further consideration. The Court
did not rule on the major substantive issue of whether the TRICARE Retail Pharmacy
program should be considered as covered by the current law. Thus, the VA could
reassert its current interpretation of the law through a notice-and-comment rulemaking
procedure.

As a result of the Court decision, TMA was advised by TMA General Counsel to suspend
indefinitely the quarterly refund invoicing to manufacturers involving network retail
pharmacy drugs. The VA General Counsel has requested the Department of Justice not
to seek rehearing of the Court’s decision. Therefore, TMA General Counsel advised the
MERHCF to reimburse any refunds received in FY 2005 and FY 2006. A nonfederal
accounts payable to the public of $53.8M was established as of September 30, 2006 to
reimburse affected pharmaceutical manufacturers during the 1st Quarter, FY 2007. In
accordance with 10 U.S.C. 1113(c)(2), transfers from the MERHCF must be made no
later than September 30, 2007 for FY 2005 refunds and no later than September 30, 2008
for FY 2006 refunds. The pharmaceutical manufacturing companies were notified of the



                                                                                            14
______________________ Management’s Discussion and Analysis

requirement to reimburse them for the involuntary drug refunds and ask to submit
individual claims for reimbursement. As of September 30, 2007 all but $32.7 thousand
had been reimbursed to the pharmaceutical companies. The $32,652 ($19,419 from FY
2005 and $13,233 from FY 2006) represents monies for which 5 drug companies have
not requested reimbursement.

Voluntary Agreements for TRICARE Retail Network Rebates (VARRs)

TMA initiated a new retail pharmacy rebate program during the 2nd Quarter, FY 2007,
Voluntary Agreements for TRICARE Retail Network Rebates (VARRs). Manufacturers
may offer rebates to the DoD for pharmaceutical agents dispensed through the TRICARE
Retail pharmacy network. There are two types of VARRs.

       1. The Uniform Formulary VARR (UF-VARR) is contingent upon
          pharmaceutical agents being included on the 1st (generic drugs) or 2nd
          (formulary brand drugs) tiers of the DoD Uniform Formulary.
       2. The Utilization VARR (VARR (Utilization)) is based solely on utilization of
          the pharmaceutical agent(s) dispensed through the TRICARE Retail Pharmacy
          Network. There is no association between formulary placement and an offer
          of a rebate. The rebates will apply to all prescriptions dispensed for the
          National Drug Class (NDC) listed on an accepted VARR to a DoD beneficiary
          through the TRICARE Retail Pharmacy Network.

As of September 30, 2007, the MERHCF invoiced a total of $15.908M and had received
$15.854M in pharmacy retail network rebates under both VARR programs.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and
results of operations for the MERHCF pursuant to the requirements of the Chief
Financial Officers (CFO) Act of 1990. While the statements have been prepared from the
books and records of the MERHCF in accordance with the Generally Accepted
Accounting Principles (GAAP) for Federal entities and the formats prescribed by OMB,
the statements are in addition to the financial statements used to monitor and control
budgetary resources which are prepared from the same books and records. The
statements should be read with the realization they are for a component of the U.S.
Government, a sovereign entity.




                                                                                       15
                ______________________ Management’s Discussion and Analysis


                Comparative Financial Data

                The following table presents comparative financial statement information for the MERHCF.

                                              Medicare-Eligible Retiree Health Care Fund
                                                     Analysis of Financial Statements
                                            for the years ended September 30, 2007 and 2006
                                                             ($ in Thousands)
                                                                                                                            Difference
                           Consolidated Balance Sheet                                    2007              2006              Increase/
                                                                                                                            (Decrease)
Fund Balance with Treasury
   - Army payment of FY 2005 normal cost contribution was not                                  $5,000        $37,855            ($32,855)
     received until last day of FY 2006 – could not be invested by close of FY 2006                                                (87%)
Investments (Intra-Governmental Securities)
  - Revenue from Treasury Payments, Service Contribution, and Interest                $109,549,060       $85,394,986         $24,154,074

                                                                                                                                    28%
Account Receivable (Non-Federal)
  - Increase from increased purchased care inpatient/outpatient                               $10,393         $8,803              $1,590
    workload, increased TMOP workload, decreased allowance for
    uncollectibles                                                                                                                  18%
Accounts Payable (Intra-Governmental)
  - Increased due to increased use of TMOP and cost of pharmaceuticals                        $70,276        $49,109              $21,167
                                                                                                                                      43%
Accounts Payable (Non-Federal) Decreased                                                  $186,361         $223,265             ($36,904)
   - Decreased due to payment of $53.8M refunds to pharmaceutical manufacturers                                                     (17%)
   - Increased use of retail pharmacies, USFHP & TFL by MERHCF beneficiaries
     ~$16.9M
Military Retirement and Other Federal Employment Benefits                                                                   ($21,553,318)
   - Actuarial liability decreased for reasons stated below                           $516,479,229      $538,032,547                 (4%)
Benefits Due and Payable                                                                                                          $20,754
 - IBNR increased only $20.8M (3.4%) from FY 2006 to FY 2007                              $625,418         $604,664                 3.4%

                                 Statement of Net Cost
Public costs decreased primarily due to changes in the computation of the health      ($16,344,340)       $5,329,733        ($21,674,073)
  care liability discussed in the “Military Retirement and Other Federal Employment                                               (407%)
  Benefits” section

                      Statement of Changes In Net Position
Transfers-in/out Without Reimbursement increased due to a one-time transfer of            $186,000          -0-                 $186,000
  funds from the National Defense Stockpile Transaction Fund in 1st Quarter,                                                       100%
  FY 2007. Transfer was made per the requirements of section 708(b) of the
  FY 2007 National Defense Authorization Act Conference Report

                       Statement of Budgetary Resources
Non-Expenditure Transfers, Net, Anticipated and Actual increased $186M due to the         $186,000          -0-                 $186,000
  Transfer described previously in the Statement of Changes in Net Position Section                                                100%




                                                                                                                       16
______________________ Management’s Discussion and Analysis

Fund Balance with Treasury (FBWT)

The FBWT decreased $32.9M (87%). The MERHCF has a normal fluctuation of FBWT
due to a timing difference between the receipt of the notification of the final payment or
contribution and the required investment deadline at Treasury. The MERHCF withholds
$5.0M in FBWT from overnight investments to ensure the availability of sufficient funds
to cover disbursements made on the last day of the quarter that cannot be captured in time
to meet the month-end investment timeframe. The $5.0M total in FBWT as of September
30, 2007 is the normal holdback. The $37.9M total in FBWT as of September 30, 2006
was the sum of the holdback plus a $32.4M collection from the Army Reserve for a
correction of the FY 2005 contribution.

Investments – Intra-Governmental Securities

Investments, Net increased $24.2B (28%). This increase is primarily the result of
investing $21.3B of the $27.2B in Treasury, Military Service, and other Uniformed
Service annual contributions. The remainder was used for current operations of the
MERHCF.

Accounts Receivable (Non-Federal)

Primarily, three activities generate the MERHCF accounts receivable (public). The
majority of receivables result from purchased health care delivery claims processing
activities conducted by the TRICARE Dual Eligible Fiscal Intermediary Contractor
(TDEFIC). The MERHCF also establishes accounts receivable with the TRICARE Mail
Order Pharmacy (TMOP) contractor to recoup the patient co-payments made for each
prescription issued through the TMOP program. Finally, the MERHCF establishes an
account receivable for voluntary refunds received from pharmaceutical manufacturers for
including their prescription drugs in the DoD pharmacy formulary.

The TDEFIC holds accounts receivable up to 150 days in accordance with contract
requirements to attempt collection. Once the accounts age to 150 days, TDEFIC transfers
the larger debts, totaling at least $600, to the TMA General Counsel (GC) for review,
further appropriate collection action, and ultimate transfer to U.S. Treasury. Since the
TDEFIC does not transfer debts less than $600, these debts age well beyond 150 days.

The debts held by the contractor and the debts held by the TMA/GC are each considered
in total to be separate age groups because, generally, debts held by the GC are older than
debts held by the contractor, and collections are less certain. TMA, in September each
year, calculates the actual write-offs for each of the two debt categories for the previous
year.

In FY 2007, Non-Federal Receivables, Net, increased $1.6M (18%) due to increases in
the purchased care claims processing, ($0.7M), increased volume of TMOP issued
prescriptions which increased the volume of patient co-payment recoupment ($0.7M),
and reduction in the computation of the “Allowance for Doubtful Accounts” ($0.2M).



                                                                                         17
______________________ Management’s Discussion and Analysis

The increase in contractor held claims is directly attributable to increased usage of
purchased care providers. The increase in TMOP co-payment reimbursements is related
to the increased utilization of TMOP benefits. The reduction in the Allowance for
Doubtful Accounts is impacted by a significant reduction in debt write-offs in FY 2007
due to the cross servicing of claims through the U.S. Treasury; approximately $0.6M
were collected by Treasury in FY 2007 through cross servicing of MERHCF delinquent
accounts receivable. The bad debt allowance percentages, which significantly influence
the computation of the allowance for doubtful accounts declined as follows from FY
2006 to FY 2007:

       GC administered debts:        FY 2006 20.11%
                                     FY 2007 3.32%

       Contractor held debts:        FY 2006 1.85%
                                     FY 2007 0.54%

Accounts Payable (Intra-Governmental)

Intra-Governmental Payables increased $21.2M (43%) due to both the increased use of
the mail order pharmacy by DoD Medicare-eligible beneficiaries and the increased cost
of pharmaceuticals. These payables are to the Defense Logistics Agency for
replenishment of the TMOP contractor’s drug inventory back to the initial level
established at the beginning of the TMOP program.

Accounts Payable (Non-Federal)

Non-Federal Payables (to the Public) decreased $36.9M (17%) due primarily to the
payment in FY 2007 of the $53.8M accounts payable that existed at the close of FY 2006
for refunds to pharmaceutical manufacturers. The elimination of the $53.8M accounts
payable was offset by increased payables of $16.9M associated with increased demand
for retail pharmacy services, USFHP enrollments, and TFL utilization.

Military Retirement and Other Federal Employment Benefits

The Actuarial Liability has decreased from $538.0B to $516.5B. The decrease ($ in
Thousands) tracked as follows:

   a. Actuarial Liability as of 9/30/06                              $538,032,547
   b. Expected Normal Cost for FY 2007                               $ 10,801,492
   c. Expected Benefit Payments for FY 2007                          $ (8,494,519)
   d. Interest Cost for FY 2007                                      $ 34,040,697
   e. Actuarial (gains)/losses due to other factors                  $ (4,783,551)
   f. Actuarial (gains)/losses due to changes in trend assumptions   $ (53,117,437)
   g. Actuarial Liability as of 9/30/07                              $516,479,229
   h. Change in Actuarial Liability                                  $ (21,553,318)




                                                                                      18
______________________ Management’s Discussion and Analysis

Each year the Actuarial Liability is expected to increase with normal cost, decrease with
benefit payments, and increase with the interest cost. In the absence of actuarial gains
and losses or benefit changes, an increase of $36,347,670 thousand in the Actuarial
Liability was expected during FY 2007 (line b plus line c plus line d). The September 30,
2007, Actuarial Liability includes changes due to new assumptions and actuarial
experience. The actuarial gain due to new medical trend assumptions is -$53,117,437
thousand (line f). The actuarial gains and losses due to other factors (net -$4,783,551
thousand, line e) includes new population data, a 0.25% decrease in the discount rate,
other actuarial experience being different from assumed and actuarial assumption
changes other than the change in trend and discount rates.

Statements of Net Cost

Public Costs for MERHCF decreased $21.7B (407%) primarily due to the change in the
computation of the health care liability discussed in the Military Retirement and Other
Federal Employment Benefits Section.

Statements of Changes In Net Position

Transfers-in/out Without Reimbursement increased $186M due to a transfer of funds
from the National Defense Stockpile Transaction Fund in 1st Quarter, FY 2007. This
transfer was made in accordance with the requirements of section 708(b) of the FY 2007
National Defense Authorization Act Conference Report.

Statements of Budgetary Resources

Non-Expenditure Transfers, Net, Anticipated and Actual increased $186M due to the
transfer described previously in the Statement of Changes in Net Position Section.

Reconciliation of Net Cost of Operations to Budget

Undelivered Orders decreased $8.7M (41%) primarily due to a decrease of $10.0M in
orders for medical/surgical inpatient and outpatient care that were overstated in FY 2006.

Components Requiring or Generating Resources in Future Periods – Other decreased
$22.0B primarily due to the change in the FY 2007 actuarial liability. This change was
primarily caused by a revision of two key economic assumptions: the valuation discount
rate and medical trend rates.

Management Assurances

Agencies are required to provide certain assurances as to the status and effectiveness of
the internal controls and financial management systems that support the preparation of
the financial statements. In the context of the MERHCF Management Discussion and
Analysis, DoD, and not MERHCF, represents the legislative definition of an Agency.
Beginning with FY 2006, as directed in OMB Circular A-123, Management’s



                                                                                            19
______________________ Management’s Discussion and Analysis

Responsibility for Internal Control, Appendix A, Internal Control Over Financial
Reporting, the 24 CFO Act agencies (includes DoD), are required to provide a separate
assessment of the effectiveness of the internal controls over financial reporting as a
subset of the overall Federal Managers Financial Integrity Act (FMFIA) assurance
statement. OUSD(C) issued guidelines to the leadership of DoD Components, including
MERHCF, as to how to support this DoD reporting requirement. TMA management
complied with the required guidelines for MERHCF.

In its FY 2007 assessments, TMA management assessed that, except for direct care–
related material weaknesses addressed above, the MERCHF (as an OMB designated
Financial Statement Reporting Entity (FSRE)) has effective internal controls to support
effective and efficient programmatic operations, reliable financial reporting, and is in
process of implementing corrective actions to become fully compliant with applicable
laws and regulations (FMFIA § 2); while the current financial management systems do
not currently conform to financial systems requirements (FMFIA § 4) TMA management
is working with DFAS to implement corrective actions for purchased care operations to
comply with (FMFIA § 4). MERHCF FSRE cannot achieve compliance with (FMFIA §
4) for direct care until the Services have implemented financial systems that comply with
(FMFIA § 4). The OUSD (C ) published Financial Improvement and Audit Readiness
Report as of September 30, 2007, indicates a FY 2017 timeline for the Services to
achieve (FMFIA § 4) compliance.

TMA management previously reported that, except for the direct care - related material
weakness discussed above, and documented in its Annual Statement Required Under the
FMFIA, dated July 3, 2007, and its non-compliance with OMB Circular A-127, the
MERHCF had effective internal controls over financial reporting. However, subsequent
to the assessment process, an additional material weakness was identified during FY
2007. During the preparation of the Fund’s year-end financial statements, the initial
presentation of certain offsetting receipts accounts of the MERHCF for FY 2006 and FY
2007 was determined to be noncompliant with U.S. Treasury guidance, affecting the
Statement of Budgetary Resources and the disclosure of financing activities. The change
in U.S. Treasury guidance for offsetting receipts, which was effective for FY 2006, was
not previously identified for the MERHCF’s financial statement preparation process. In
its FY 2006 Report of Treasury Receipts by Source, Treasury identified certain receipt
accounts that should be identified as distributed offsetting receipts by the MERHCF and
the DoD.

The correct classification of offsetting receipts is significant to the accurate reporting of
intragovernmental activity for the DoD and U.S. Government financial statements.
Therefore, the MERHCF corrected the presentation of the FY 2007 financial statements
and restated the FY 2006 financial statements and related disclosures.

The Status of FY 2006 Audit Findings and Actions Taken above include a summary of
material weakness (FMFIA § 2) and non-conformances (FMFIA § 4), and summary of
corrective actions to resolve the material weaknesses and non-conformances.




                                                                                            20
______________________ Management’s Discussion and Analysis


Table 1.
Summary of Financial Statement Audit

Audit Opinion                                                             Qualified
Restatement                                                                 Yes

Material Weaknesses                               Beginning     New    Resolved    Consolidated    Ending
                                                  Balance                                          Balance
Lack of U.S. Standard General Ledger                  1            0       0            0              1
Compliant, Transaction-based Accounting
Systems for Direct-care Costs (Carried
Forward and Updated Finding from Fiscal
Year (“FY”) 2005)
Direct Care Cost Data Accumulation (Carried             1          0       0            0             1
Forward and Updated Finding from Fiscal
Year FY2005)
Purchased Care Claims Backlog (Carried                  1          0       1            0             0
Forward and Updated Finding from Fiscal
Year FY2005)
Presentation of Distributed Offsetting Receipts         0          1       0                          1
Total Material Weaknesses                               3          1       1            0             3

Table 2.
Summary of Management Assurances

Effectiveness of Internal Controls over Financial Reporting (FMFIA § 2)
Statement of Assurance                                         Qualified

Material Weaknesses                  Beginning    New       Resolved   Consolidated   Reassessed    Ending
                                     Balance                                                        Balance
Lack of U.S. Standard General            1          0          0               0            0          1
Ledger Compliant, Transaction-
based Accounting Systems for
Direct-care Costs (Carried
Forward and Updated Finding
from Fiscal Year (“FY”) 2005)
Direct Care Cost Data                     1         0          0               0            0          1
Accumulation (Carried Forward
and Updated Finding from Fiscal
Year FY2005)
Purchased Care Claims Backlog             1         0          1               0            0          0
(Carried Forward and Updated
Finding from Fiscal Year
FY2005)
Presentation of Distributed               0         1          0                            0          1
Offsetting Receipts
Total Material Weaknesses                 3         1          1               0            0          3




                                                                                                           21
______________________ Management’s Discussion and Analysis


Effectiveness of Internal Controls over Operations (FMFIA § 2);
Statement of Assurance                                        Qualified

Material Weaknesses               Beginning   New    Resolved   Consolidated   Reassessed   Ending
                                  Balance                                                   Balance
Lack of U.S. Standard General         1        0        0            0             0           1
Ledger Compliant, Transaction-
based Accounting Systems for
Direct-care Costs (Carried
Forward and Updated Finding
from Fiscal Year (“FY”) 2005)
Direct Care Cost Data                 1        0        0            0             0          1
Accumulation (Carried Forward
and Updated Finding from Fiscal
Year FY2005)
Purchased Care Claims Backlog         1        0        1            0             0          0
(Carried Forward and Updated
Finding from Fiscal Year
FY2005)
Total Material Weaknesses             3        0        1            0             0          2




                                                                                                  22
______________________ Management’s Discussion and Analysis


Conformance with financial management system requirements (FMFIA § 4)
Statement of Assurance Except for the Trust Fund Accounting System (TFAS) used by DFAS-IN,
                       Purchased Care systems conform to financial management systems
                       requirements; Direct Care Cost systems do not comply with financial
                       management systems requirements

Non-Conformances          Beginning   New    Resolved     Consolidated    Reassessed        Ending
                          Balance                                                           Balance
Lack of U.S. Standard          1        0         0             0               0               1
General Ledger
Compliant, Transaction-
based Accounting
Systems for Direct-care
Costs (Carried Forward
and Updated Finding
from Fiscal Year
(“FY”) 2005)
Direct Care Cost Data         1         0         0             0               0              1
Accumulation (Carried
Forward and Updated
Finding from Fiscal
Year FY2005)
Purchased Care Claims         1         0         1             0               0              0
Backlog (Carried
Forward and Updated
Finding from Fiscal
Year FY2005)


Total non-                    3         0         1             0               0              2
conformances



Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                   Agency                  Auditor
Overall Substantial Compliance                        No                     No
1. Systems Requirements                      Yes for Purchased Care; - No for Direct Care
2. Accounting Standards                      Yes for Purchased Care; - No for Direct Care
3. USSGL at Transaction Level                Yes for Purchased Care; - No for Direct Care

Internal Controls Over Financial Reporting and on Compliance with Other Matters

During an independent audit of the Fund’s financial statements, the auditor identified
deficiencies related to the internal control over the preparation, analysis, and monitoring
of financial information to support the efficient and effective preparation of financial
statements. Because of these deficiencies, the auditor believes the Fund’s financial
management system does not meet the requirements of an integrated financial
management system as defined in OMB Circular A-127, with respect to consistent
internal control over data entry, transaction processing and reporting. Further, the auditor
believes the Fund is not in compliance with the system design requirements sufficient to
comply with internal and external reporting requirements, including, as necessary, the


                                                                                                   23
______________________ Management’s Discussion and Analysis

requirements for financial statements prepared in accordance with the form and content
prescribed by OMB and reporting requirements prescribed by Treasury, and to monitor
the financial management system to ensure integrity of financial data.

More detailed discussion of the auditors findings on internal controls can be found in the
“Independent Auditors’ Report on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based Upon the Audit Performed in Accordance with
Government Auditing Standards.”




                                                                                         24
           DoD
MEDICARE-ELIGIBLE RETIREE
      HEALTH CARE
          FUND


  PRINCIPAL STATEMENTS




            25
__________________________________________ Principal Statements


                                    Department of Defense
                            DoD Medicare-Eligible Health Care Fund
                                     BALANCE SHEETS
                              For the Years Ended September 30
                                       (In Thousands)




                                                              2007                 2006
ASSETS

     Intragovernmental:
        Fund Balances with Treasury (Note 2)        $              5,000     $         37,855
        Investments (Note 3)                                 109,549,060           85,394,986
     Total Intragovernmental Assets                 $        109,554,060     $     85,432,841

   Accounts Receivable, Net (Note 4)                              10,393                8,803
TOTAL ASSETS                                        $        109,564,453     $     85,441,644



LIABILITIES

    Intragovernmental:
       Accounts Payable (Note 6)                    $               70,276   $         49,109
    Total Intragovernmental Liabilities             $               70,276   $         49,109

   Accounts Payable (Note 6)                                       186,361           223,265
   Military Retirement Benefits and Other
      Employment Benefits (Notes 5 and 7)                    516,479,229         538,032,547
   Benefits Due and Payable (Notes 5 and 7)                      625,418             604,664
TOTAL LIABILITIES                                   $        517,361,284     $   538,909,585

NET POSITION

   Cumulative Results of Operations                        (407,796,831)         (453,467,941)
TOTAL NET POSITION                                  $      (407,796,831)     $   (453,467,941)

TOTAL LIABILITIES AND NET POSITION                  $        109,564,453     $     85,441,644



The accompanying notes are an integral part of these statements.




                                                   26
__________________________________________ Principal Statements



                                      Department of Defense
                           DoD Medicare-Eligible Retiree Health Care Fund
                                 STATEMENTS OF NET COST
                                For the Years Ended September 30
                                         (In Thousands)


                                                              2007               2006

    PROGRAM COSTS
       Gross Costs                                   $       (13,945,803)   $     7,610,604
        (Less: Earned Revenue)                               (31,539,307)       (31,802,718)

       Net Program Costs                             $       (45,485,110)   $   (24,192,114)


    Net Cost of Operations                           $       (45,485,110)   $   (24,192,114)




Additional information included in Note 8.

The accompanying notes are an integral part of these statements.




                                                   27
__________________________________________ Principal Statements


                                          Department of Defense
                               DoD Medicare-Eligible Retiree Health Care Fund
                              STATEMENTS OF CHANGES IN NET POSITION
                                    For the Years Ended September 30
                                             (In Thousands)


                                                                    2007                2006

CUMULATIVE RESULTS OF OPERATIONS
   Beginning Balances                                       $      (453,467,941)   $   (477,660,055)

    Budgetary Financing Sources:
       Transfers-in without reimbursement                   $          186,000     $              0
       Other Financing Sources                                               0                    0
    Total Financing Sources                                 $          186,000     $              0

    Net Cost of Operations (+/-)                            $       (45,485,110) $     (24,192,114)
    Net Change                                              $        45,671,110 $       24,192,114

    Cumulative Results of Operations                        $      (407,796,831)   $   (453,467,941)

    Unexpended Appropriations, Beginning Balance            $                 0    $              0
    Budgetary Financing Sources                                               0                   0
    Total Unexpended Appropriations                         $                 0    $              0


   Net Position                                             $      (407,796,831)   $   (453,467,941)




The accompanying notes are an integral part of these statements.




                                                   28
__________________________________________ Principal Statements


                                               Department of Defense
                                    DoD Medicare-Eligible Retiree Health Care Fund
                                    STATEMENTS OF BUDGETARY RESOURCES
                                         For the Years Ended September 30
                                                  (In Thousands)
                                                                                                    2006
                                                                             2007               (As Restated)

BUDGETARY RESOURCES
  Unobligated balance, brought forward, October 1:                 $                   0    $           97,212
   Budget Authority:
         Appropriation                                                        31,200,621            31,528,510
         Subtotal                                                  $          31,200,621    $       31,625,722
   Nonexpenditure transfers, net, anticipated and actual                         186,000                     0
   Temporarily not available pursuant to Public Law                          (23,810,932)          (24,549,875)
  Total Budgetary Resources                                        $           7,575,689    $        7,075,847

STATUS OF BUDGETARY RESOURCES
   Obligations incurred:
         Direct                                                    $           7,575,689    $        7,075,847
         Subtotal                                                  $           7,575,689    $        7,075,847
   Unobligated balance:
         Apportioned                                                                   0                     0
         Subtotal                                                  $                   0    $                0
   Unobligated Balance Not Available                               $                   0    $                0
  Total Status of Budgetary Resources                              $           7,575,689    $        7,075,847

CHANGE IN OBLIGATED BALANCE
   Obligated Balance, net
         Unpaid obligations, brought forward October 1             $             397,172 $              387,881
         Total unpaid obligated balance, net                       $             397,172 $              387,881
   Obligations incurred net (+/-)                                              7,575,689              7,075,847
   Gross Outlays                                                              (7,604,088)            (7,066,556)
   Obligated Balance, Net - end of period
         Unpaid Obligations                                                     368,773                397,172
  Total unpaid obligated balance, net, end of period               $            368,773     $          397,172

NET OUTLAYS
   Net Outlays:
        Gross Outlays                                              $           7,604,088    $        7,066,556
        Distributed Offsetting Receipts                                      (19,653,179)          (20,390,638)

   Total Outlays                                                   $        (12,049,091)    $      (13,324,082)

Additional information included in Notes 9 and 13.
The accompanying notes are an integral part of these statements.




                                                     29
           DoD
MEDICARE-ELIGIBLE RETIREE
      HEALTH CARE
          FUND



          NOTES
         TO THE
  PRINCIPAL STATEMENTS




            30
_______________________________Notes to the Principal Statements


                   DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                         NOTES TO THE PRINCIPAL STATEMENTS
                    FOR THE YEARS ENDED SEPTEMBER 30, 2007 AND 2006

NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

A. Basis of Presentation. The Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund (the
Fund or MERHCF) was authorized by Public Law (PL) 106-398 for the accumulation of funds to finance the
liabilities of the DoD and the uniformed services health care programs for specific Medicare-eligible beneficiaries.
The Fund began operations effective October 1, 2002.
These financial statements report the financial position and results of operations for the Fund, as required by the
Chief Financial Officers (CFO) Act of 1990, expanded by the Government Management Reform Act (GMRA) of
1994, and other appropriate legislation. The financial statements have been prepared from the books and records of
the Trust Fund Accounting Division, Directorate for Agency Wide Financial Statements and Trust Funds
Directorate for Corporate Accounting, Directorate for Standards and Compliance, Defense Finance and Accounting
Service (DFAS), in accordance with the requirements of Office of Management and Budget (OMB) Circular A-136,
“Financial Reporting Requirements,” as revised, and accounting principles generally accepted in the United States
of America. The Fund’s financial statements are prepared by DFAS in addition to the financial reports, pursuant to
OMB directives, which are used to monitor and control budgetary resources within the Fund. More detailed
explanations of these financial statement elements are discussed in applicable footnotes. The financial statements
account for all resources for which the Fund is responsible, unless otherwise noted.
B. Mission of the Reporting Entity. The mission of the Fund is to accumulate funds in order to finance, on an
actuarially sound basis, liabilities of the DoD and the uniformed services health care programs for specific
Medicare-eligible beneficiaries.

C. Appropriations and Funds. The Fund was authorized by the “Floyd D. Spence National Defense Authorization
Act for Fiscal Year 2001.” The purpose of the Fund is to pay the costs of all Military Service and uniformed
services retiree health care programs for the benefit of members or former members of a participating service who
are entitled to retired or retainer pay and are Medicare-eligible, their dependents who are Medicare-eligible, and
their survivors who are Medicare-eligible.
Since 1st Quarter, FY 2006, all appropriations received are considered earmarked funds. Earmarked funds are
financed by specifically identified revenues; required by statute to be used for designated activities, benefits, or
purposes; and remain available over time. Earmarked funds are also required to account for and report on the
receipt, use and retention of revenues and other financing sources that distinguish them from general revenues. The
MERHCF receives its appropriations and funds as earmarked funds. The MERHCF uses these appropriations and
funds for daily execution of its mission and to report subsequently on resource usage. The MERHCF’s U.S.
Treasury symbol is 97X5472.
D. Basis of Accounting. Under authority of the CFO Act of 1990, the Federal Accounting Standards Advisory
Board (FASAB) was established to recommend Federal Accounting Standards to its three principal members, the
Secretary of the Treasury, the Director of the OMB, and the Comptroller General of the United States. The
Statements of Federal Financial Accounting Standards (SFFAS) have been issued by the FASAB, following
procedures adopted by the FASAB principles. Some SFFAS have deferred effective dates.
In April 2000, the American Institute of Certified Public Accountants (AICPA), in its Statement on Auditing
Standards (SAS) No. 69, “The Meaning of Present Fairly in Conformity with Generally Accepted Accounting
Principles (GAAP) in the Auditor’s Report,” as amended by SAS No. 91, “Federal GAAP Hierarchy,” established
the following hierarchy of accounting principles for federal government entities:




                                                         31
_______________________________Notes to the Principal Statements

         (A)          FASAB Statements and Interpretations plus AICPA and Financial Accounting Standards
                      Board (FASB) pronouncements if made applicable to Federal governmental entities by a
                      FASAB Statement or Interpretation.

         (B)          FASAB Technical Bulletins and the following pronouncements, if specifically made
                      applicable to federal governmental entities by the AICPA and cleared by the FASAB: AICPA
                      Industry Audit and Accounting Guides and AICPA Statements of Position.

         (C)          AICPA Accounting Standards Executive Committee (ACSEC) Practice Bulletins, if
                      specifically made applicable to federal governmental entities and cleared by the FASAB and
                      Technical Releases of the Accounting and Auditing Policy Committee of the FASAB.

         (D)          Implementation guides published by the FASAB staff and practices that are widely recognized
                      and prevalent in the federal government.

In the absence of a pronouncement covered by Federal GAAP or another source of established accounting
principles, the auditor of a federal government entity may consider other accounting literature, depending on its
relevance to the circumstance. When directed by OMB, through OMB Circular A-136, generally accepted
accounting principles in the United States of America serve as authoritative guidance for federal agencies in
preparing reports that are addressed within OMB Circular A-136.
E. Revenues and Other Financing Sources. The FY 2005 Defense Authorization Act assigned Treasury, vice the
Uniformed Services, the responsibility of paying normal cost contributions into the Fund, starting in FY 2006. In
FY 2006, the beginning of fiscal year Treasury contribution also included the total normal cost amount for the year.
This contribution is determined based on per-capita normal cost rates approved by the DoD MERHCF Board of
Actuaries times the expected average force strength for the Uniformed Services. Thus, the Uniformed Services no
longer make monthly contributions into the Fund. Contributions are recognized when due to the Fund.

F. Recognition of Expenses. For financial reporting purposes, the Fund recognizes benefit expenses in the period
incurred. However, because MERHCF’s financial feeder systems were not designed to collect and record financial
information on the full accrual basis, accrual adjustments are made for major items such as accounts receivable and
accounts payable. As of the 3rd Quarter, FY 2006, payments are now made in the quarter that the Military
Treatment Facility (MTF) expenses will be incurred. Previously, during the interim quarters, prior to the last
quarter, advances were made for the MTF expenses for the upcoming quarters. Those expenses were recognized at
the outset of each quarter and recorded as an advance to the MTFs. There were no advances recorded at September
30, 2007 or September 30, 2006, and there will be no advances recorded in any future quarter.
G. Accounting for Intragovernmental Activities. The Fund purchases and redeems non-marketable market-based
securities issued by the United States Treasury, Bureau of the Public Debt. Non-marketable market-based securities
include Treasury bills, notes, bonds, Treasury Inflation-Protected Securities (TIPS), and overnight certificates.

H. Funds with the U.S. Treasury. The U.S. Treasury allows the Fund to be fully invested. Therefore, the Fund
Balance with Treasury (FBWT) may be zero during various quarters of the fiscal year.

The Fund’s financial resources are maintained in U.S. Treasury Accounts. The DFAS processes all Fund receipts
and adjustments. The DFAS prepares monthly reports, which provide information to the U.S. Treasury on transfers
and deposits.

In addition, DFAS submits reports to Treasury, by appropriation, on collections received. Treasury then records
this information to the FBWT account maintained in the Treasury system. Differences between the Fund-recorded
balance in the FBWT account and the Treasury FBWT are reconciled.
I. Accounts Receivable. As presented in the Balance Sheets, accounts receivable includes accounts, claims, and
refunds receivable from the public as well as intragovernmental receivables due from the Uniformed Services.
Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by the



                                                         32
_______________________________Notes to the Principal Statements

Fund. The Fund does not recognize an allowance for estimated uncollectible amounts due from intragovernmental
receivables.
J. Investments in U.S. Department of Treasury Securities. Intergovernmental securities represent non-marketable
market-based securities issued by the U.S. Department of Treasury, Bureau of the Public Debt. These securities are
redeemable at market value exclusively through the Federal Investment Branch of Treasury. These non-marketable
market-based Treasury securities are not traded on any securities exchange, but mirror the prices of marketable
securities with similar terms. The MERHCF’s intent is to hold investments to maturity, unless they are needed to
finance claims or otherwise sustain operations. Consequently, there is no provision for unrealized gains or losses on
these securities. The MERHCF receives interest semiannually on the value of its marketable, market-based
securities from the U.S. Treasury. Investments are recorded at amortized cost on the Balance Sheet. Material
disclosures are provided at Note 3.
K. Net Position. Net position consists of cumulative results of operations and unexpended appropriations.
Cumulative results of operations represent the net difference, since the inception of an activity, between the net cost
of operations and financing sources. Effective FY 2002, when the Fund began operations, the cumulative results
also include transfers in and out of assets without reimbursement.
Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments
have not been incurred. The MERHCF does not report unexpended appropriations because these amounts are not
applicable.
L. Comparative Data. For comparative purposes, the financial statements display both FY 2006 and 2007 data.
Certain FY 2006 balances have been reclassified to conform to the FY 2007 presentation to reflect changes required
in conjunction with the OMB Circular A-136, “Financial Reporting Requirements,” updated and revised in June
2007.

As required by OMB Circular A-136, the reconciliation of budgetary obligations and non-budgetary resources
available to the MERHCF with its net cost of operations information that was previously presented in a separate
statement of financing is now presented in Note 10, Reconciliation of Net Cost of Operations to Budget, on a
comparative basis.

M. Estimates. The preparation of financial statements in conformity with accounting principles generally accepted
in the United States of America requires management to make estimates and assumptions that affect the reported
amounts of assets, liabilities and changes therein, and the actuarial present value of accumulated plan benefits at the
date of the financial statements. Actual results could differ from those estimates.

N. Actuarial Information. The MERHCF financial statements present the unfunded actuarial liability determined as
of the end of the fiscal year based on population information as of the beginning of the year and updated to the end
of the year using accepted actuarial techniques. The “projected benefit obligation” method is used as required by
SFFAS No. 5, “Accounting for Liabilities of the Federal Government.”




                                                          33
_______________________________Notes to the Principal Statements


NOTE 2. FUND BALANCES WITH TREASURY (FBWT)

                                                                     FY 2007                       FY 2006
 ($ in Thousands)

 Fund Balances:
   Trust Funds                                                $           5,000              $        37,855

 Status of Fund Balance with Treasury:
    Unobligated Balance
       Available                                              $              0               $             0
       Unavailable                                                 108,079,641                   84,268,709
    Obligated Balance not yet Disbursed                                368,773                      397,173
    Non-FBWT Budgetary Accounts                                   (108,443,414)                  (84,628,027)
    Total                                                     $          5,000               $        37,855

The FBWT decreased $32.9 million (87%) because a collection was processed late on the last business day of
September 2006 and was not available to invest before the end of the fiscal year. This collection represented an
underpayment of the Army Reserves’ FY 2005 contribution. There were no similar late collections in September
2007.

Fund Balances. Generally, the FBWT is maintained at approximately $5.0 million to ensure that sufficient funds
are available to cover estimated daily disbursements with the remaining funds invested in non-marketable market-
based securities.

Unobligated Balance. The Unobligated Balance represents the cumulative amount of budgetary authority that has
not been set aside to cover outstanding obligations. Certain unobligated balances are restricted for future use and
are not apportioned for current use. These unobligated balances, which are segregated to show the available and
unavailable amounts, are related to trust fund accounts which are restricted by the public laws that established the
funds. These balances become available subsequently without appropriations actions. The MERHCF manager
records the funds and invests the trust fund receipts with the U.S. Department of Treasury, Bureau of the Public
Debt. These investments are redeemed as funds are needed.

Obligated Balance not yet Disbursed. This amount represents funds that have been obligated for goods that have
not been received, services that have not been performed, and goods and services that have been delivered/received,
but not yet paid. The MERHCF balance represents amounts payable to the Defense Logistics Agency (DLA) for
purchases of pharmaceuticals, to private contractors waiting for DLA to replenish the pharmaceutical supply, and to
private hospitals for medical services rendered.

Non-FBWT Budgetary Accounts. These amounts represent adjustments to budgetary accounts that do not affect
FBWT, such as contract authority, borrowing authority, and investment accounts. This category reduces the Status
of FBWT. The MERCHF balance represents investment accounts.




                                                         34
_______________________________Notes to the Principal Statements


NOTE 3. INVESTMENTS

                                                                    FY 2007
 ($ in Thousands)
                                                                   Amortized                              Market
                                               Amortization        (Premium)/         Investments,         Value
                                  Cost           Method             Discount              Net            Disclosure

 Intragovernmental
      Securities:

 Non-Marketable,
     Market-Based          $   110,206,344        Effective   $     (1,762,930)   $   108,443,414    $   106,692,773
                                                   Interest
      Subtotal             $   110,206,344                    $     (1,762,930)   $   108,443,414    $   106,692,773
 Interest Receivable             1,105,646                                   0          1,105,646          1,105,646
 Total                     $   111,311,990                    $     (1,762,930)   $   109,549,060    $   107,798,419



                                                                    FY 2006

                                   Cost        Amortization        Amortized                              Market
                                                Method             (Premium)/         Investments,         Value
                                                                    Discount              Net            Disclosure
 Intragovernmental
      Securities:

 Non-Marketable,
    Market-Based           $   85,730,555        Effective    $     (1,123,332)   $    84,607,223    $    82,962,706
                                                  Interest
 Subtotal                  $   85,730,555                     $     (1,123,332)   $    84,607,223    $    82,962,706
 Accrued Interest                 787,763                                    0            787,763            787,763
 Total                     $   86,518,318                     $     (1,123,332)   $    85,394,986    $    83,750,469

Investments, Net increased from $85.4 billion in FY 2006 to $109.5 billion in FY 2007 because of a cumulative
positive cash flow. The investments are presented at Amortized Cost in the accompanying balance sheets. The
components of the net Amortized Cost and the Market Value of the investments are displayed in the table above as
of September 30, 2007 and 2006. The table below displays the par value of the U.S. Treasury Securities held by the
Fund:

        Par Value                            FY 2007                     Par Value                    FY 2006
 ($ in Thousands)                                                 ($ in Thousands)
 Bonds                                $      2,000,000            Bonds                         $     2,000,000
 Notes                                      16,486,564            Notes                              19,384,102
 Overnights                                  4,606,470            Overnights                          4,841,189
 TIPS                                       69,098,361            TIPS                               46,514,635
 Total                                $     92,191,395            Total                         $    72,739,926



                                                         35
_______________________________Notes to the Principal Statements


Intragovernmental securities represent nonmarketable market-based securities issued by the U.S. Department of
Treasury, Bureau of the Public Debt. Non-marketable market-based securities include U.S. Treasury bills, notes,
bonds, U.S. Treasury Inflation-Protected Securities (TIPS), and overnight certificates.

The U.S. Treasury notes have maturities of at least one year, but not more than ten years, and are purchased at a
discount or premium. The U.S. Treasury bonds are long-term securities with maturity terms of ten years or more
and are purchased at either a discount or premium. The TIPS are fixed-rate instruments designed to protect against
inflation, and the principal amount is indexed to the consumer price index (CPI) by adjusting the current CPI to the
CPI at issuance; as inflation increases, so does the principal amount and the coupon. When a TIPS matures, the
U.S. Treasury pays the adjusted principal or original principal, whichever is greater. The TIPS amount includes
inflation compensation as well as the par value of the shares. Overnight securities are short-term securities that
mature the next business day and earn interest at the daily Federal Reserve repurchase agreement rate.

The Fund records investments at book value, representing amortized cost. The Fund recognizes the amortization of
discounts and premiums using the effective interest method. The Fund receives interest on the value of its non-
marketable market-based securities from the U.S. Treasury on a semi-annual basis for U.S. Treasury bonds and
notes.

The Federal Government does not set aside assets to pay future benefits and expenditures associated with earmarked
funds. The cash generated from earmarked funds are deposited in the U.S. Treasury, which uses the cash for
general Government purposes. The U.S. Treasury issues securities to the earmarked funds as evidence of
earmarked fund receipts. The U.S. Treasury securities are an asset to the MERHCF and a liability to the U. S.
Treasury. Because the MERHCF and U.S. Treasury are both parts of the Federal Government, these assets and
liabilities offset each other from the standpoint of the Federal Government as a whole. For this reason, they do not
represent an asset or a liability in the U.S. Governmentwide financial statements. The U.S. Treasury securities
provide the MERHCF with authority to draw upon the U.S. Treasury to make future benefit payments or other
expenditures. When the MERHCF requires redemption of these securities to make expenditures, the Federal
Government finances the securities out of accumulated cash balances by raising taxes or other receipts, by
borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the same way that the
Federal Government finances all other expenditures.




                                                         36
_______________________________Notes to the Principal Statements

NOTE 4. ACCOUNTS RECEIVABLE

                                                                    FY 2007
 ($ in Thousands)

                                         Gross                    Allowance for             Accounts Receivable,
                                       Amount Due            Estimated Uncollectibles               Net

 Intragovernmental Receivables    $                 0   $                          0    $                       0
 Non-Federal Receivables
   (from the Public)                          10,450                             (57)                      10,393
 Total Accounts Receivable        $           10,450    $                        (57)   $                  10,393

                                                                    FY 2006
 ($ in Thousands)

                                         Gross                    Allowance for             Accounts Receivable,
                                       Amount Due            Estimated Uncollectibles               Net

 Intragovernmental Receivables    $                 0   $                         0     $                       0
 Non-Federal Receivables
   (from the Public)                           9,016                            (213)                       8,803
                                  $            9,016    $                       (213)   $                   8,803


Other Information ($ in Thousands, unless otherwise noted)
Non-Federal

Non-Federal Accounts Receivable, Net, increased from $8,803 to $10,393 (18%) due to increases in Medicare
cross-over claim recoupments and TRICARE Mail Order Pharmacy (TMOP) program usage.

The recoupments for Medicare cross-over claims, which are first adjudicated by Medicare and subsequently
adjudicated by the TRICARE Dual Eligible Fiscal Intermediary Contractor, increased $0.7 million. These claims
are associated with increased utilization of purchased care inpatient and outpatient services.

The reimbursements for TMOP co-payments increased $0.7 million. This change is related to the increased
utilization of TMOP benefits.

The Allowance for Estimated Uncollectibles is calculated by using the actual percentage of write-off activity
experienced for the past 11 months for two categories of debt: Debts held by the contractor on behalf of the
Government and those administered by the TRICARE Management Activity (TMA) Office of General Counsel.
Debts owed to the TMA by contractors are considered fully collectible.

In FY 2007, TMA experienced a significant reduction in debt write-offs ($610 thousand) due to the cross servicing
of claims through Treasury. Consequently, the bad debt allowance percentages, which significantly impact the
computation of the Allowance for Estimated Uncollectibles, declined. The Office of General Counsel administered
debt decreased from 20.11% in FY2006 to 3.32% in 2007. The Contractor held debt decreased from 1.85% in FY
2006 to 0.54% in FY 2007.




                                                        37
_______________________________Notes to the Principal Statements

NOTE 5. LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES

                                                                        FY 2007                      FY 2006
 ($ in Thousands)

 Non-Federal Liabilities:
 Military Retirement Benefits and Other Federal
  Employment Benefits (Note 7)                                 $           409,025,006    $            454,368,502

 Total Non-Federal Liabilities                                 $           409,025,006    $            454,368,502

 Total Liabilities Not Covered by Budgetary Resources          $           409,025,006    $            454,368,502

 Total Liabilities Covered by Budgetary Resources              $           108,336,278    $              84,541,083

 Total Liabilities                                             $           517,361,284    $            538,909,585

Total Liabilities Not Covered by Budgetary Resources, which represent an actuarial liability, decreased $44.7
billion (10%). This change is primarily attributable to an increase of $23.2 billion in the assets available to pay
benefits plus a decrease of $21.6 billion in the actuarial liability amount. The change in available assets is due to
the receipt of annual contributions and transfer of funds from the National Defense Stockpile Transaction Fund that
were invested in non-marketable securities. The reasons for the change in the actuarial liability are discussed in
Note 7.

The Military Retirement Benefits and Other Federal Employment Benefits not covered by budgetary resources
represent actuarial liabilities for the DoD and other Uniformed Services health care programs for specific Medicare-
eligible beneficiaries for FY 2007 and FY 2006. There are no assets available to pay benefits at this time; but these
liabilities are not due and payable during the current fiscal year.


NOTE 6. ACCOUNTS PAYABLE

 ($ in Thousands)
                                                                   FY 2007                            FY 2006

 Intragovernmental Payables                                $           70,276                 $            49,109
 Non-Federal Payables (to the Public)                                 186,361                             223,265
 Total Accounts Payable                                    $          256,637                 $           272,374

Intragovernmental payables increased from $49.1 million in FY 2006 to $70.3 million in FY 2007. These payables
increased due to both the increased use of the mail order pharmacy by DoD Medicare-eligible beneficiaries and the
increased cost of pharmaceuticals. These payables are associated with the replenishment, by the Defense Logistics
Agency, of the TRICARE Mail Order Pharmacy (TMOP) contractor’s drug inventory that was initially established
at the beginning of the TMOP Program.

Non-Federal Accounts Payable (to the Public) decreased from $223.3 million in FY 2006 to $186.4 million in
FY 2007. This decrease is due primarily to the payment in FY 2007 of the $53.8 million accounts payable that
existed at the close of FY 2006 for refunds to pharmaceutical manufacturers. See Note 12, Other Disclosures, for
additional details. The elimination of the $53.8 million accounts payable was offset by increased payables of
$10.6 million to retail pharmacies, $3.5 million to U.S. Family Health Plans (USFHP), and $2.8 million for
TRICARE for Life (TFL) utilization. The increase in payables for retail pharmacy support was due to increased



                                                         38
_______________________________Notes to the Principal Statements

demand for retail pharmacy services. The increase in USFHP and TFL payables is attributable to increased use of
these health care benefits.

NOTE 7. MILITARY RETIREMENT AND OTHER FEDERAL EMPLOYMENT BENEFITS

                                                                            FY 2007
 ($ in Thousands)
                                            Present      Assumed          (Less: Assets
                                             Value        Interest         Available to            Unfunded
 Major Program Activities                 of Benefits    Rate (%)         Pay Benefits)            Liability


 Medicare-Eligible Retiree
 Benefits                           $     516,479,229        6.00%   $     (107,454,223)   $        409,025,006

 Total                              $     516,479,229                $     (107,454,223)   $        409,025,006

 Benefits Due and Payable                     625,418                          (625,418)                          0

 Total Military Retirement and
 Benefits Due and Payable           $     517,104,647                $     (108,079,641)   $        409,025,006




                                                                            FY 2006
 ($ in Thousands)
                                           Present       Assumed          (Less: Assets
                                            Value         Interest         Available to            Unfunded
 Major Program Activities                of Benefits     Rate (%)         Pay Benefits)            Liability


 Medicare-Eligible Retiree
 Benefits                           $    538,032,547         6.25%   $      (83,664,045)    $       454,368,502

 Total                              $    538,032,547                 $      (83,664,045)    $       454,368,502

 Benefits Due and Payable                     604,664                          (604,664)                          0

 Total Military Retirement and
 Benefits Due and Payable           $    538,637,211                 $      (84,268,709)    $       454,368,502




                                                        39
_______________________________Notes to the Principal Statements

The Medicare-Eligible Retiree Benefits, which represent an actuarial liability, decreased $21.6 billion (4%) from
FY 2006 to FY 2007. This change was caused by a revision of two key economic assumptions: the valuation
discount rate and medical trend rates. The discount rate was decreased by 0.25% (resulting in a $31.8 billion
increase). The medical trend rates were updated to reflect recent medical claims experience and current industry
forecasts, medical trend assumptions from the 2007 Medicare Trustee Report, and incorporating federal drug
pricing formulas (resulting in a $53.1 billion decrease). In addition, the net effect of the expected actuarial liability
change, changes due to experience, and non-economic assumptions reduced the liability by $0.2 billion. The
Benefits Due and Payable represent an actuarially determined estimate of incurred liabilities for already-provided
covered medical services for which a health care claim had not been received before the end of the 4th Quarters for
both FY 2006 and FY 2007.

Projected Revenues

Projected revenues into the Medicare-Eligible Retiree Health Care Fund, authorized by Chapter 56 of Title 10,
United States Code, come from three sources: interest earnings on Fund assets, annual “normal cost” contributions
(paid by the U.S. Treasury at the beginning of the fiscal year), and annual unfunded liability amortization
contributions (paid by the U.S. Treasury at the beginning of the fiscal year). The “normal cost” contributions are
determined as per-capita amounts (approved by the DoD Medicare-Eligible Retiree Health Care Board of Actuaries)
times expected average force strength. The unfunded liability amortization contribution represents the amortization
of the unfunded liability for service performed before October 1, 2002, as well as the amortization of actuarial gains
and losses that have arisen since then. The Board determines the unfunded liability amortization contribution.

Computation of Liability

The DoD Office of the Actuaries computes MERHCF benefits liability. The estimated actuarial liability is updated
only at the close of each fiscal year at September 30. The MERHCF accumulates funds to finance the liabilities of
the DoD and the Uniformed Services health care programs. Beneficiaries of these programs include Medicare-
eligible members of the Military and other Uniformed Services who are entitled to retired or retainer pay and their
dependents and survivors who are Medicare-eligible.

Actuarial Cost Method

Actuarial cost method used for MERHCF liability: Aggregate Entry-Age Normal. As dictated by law, MERHCF is
funded using the aggregate entry-age normal method. This is a method whereby projected retirement costs are
spread over the projected future service of a cohort at the point of entry.

Assumptions

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. Claims cost assumptions for direct care were based on actual experience in FY 2006. Assumptions for
purchased care were developed from actual experience incurred during FY 2004 through FY 2006. Because of
reporting deadlines, the current year actuarial present value of projected plan benefits is rolled forward, using
accepted actuarial methods, from the prior year’s results. The FY 2007 change in the actuarial liability is displayed
below. In calculating the FY 2007 roll-forward amount, the following medical trend assumptions were used:


  Medical Trend                                              FY 2006 - FY 2007                Ultimate Rate 2031
  Medicare Inpatient                                              6.74%                             6.25%
  Medicare Outpatient                                             6.54%                             6.25%
  Medicare Prescriptions (Direct Care)                             6.25%                            6.25%
  Medicare Prescriptions (Purchased Care)                         10.95%                            6.25%




                                                           40
_______________________________Notes to the Principal Statements

The medical cost trend rate assumptions have a significant effect on the amounts reported. For example, if the
FY 2007 assumed rates had increased by one percentage point, the actuarial present value of projected plan benefits
would have increased by 28%, or approximately $144.1 billion.

FY 2007 Change in MERHCF Actuarial Liability
($ in Thousands)

  a    Actuarial Liability as of September 30, 2006 (all Uniformed Services Medicare)            $      538,032,547
  b    Expected Normal Cost for FY 2007                                                                  10,801,492
  c    Expected Benefit Payments for FY 2007                                                             (8,494,519)
  d    Interest Cost for FY 2007                                                                         34,040,697
  e    Actuarial (Gains)/Losses Due to Other Factors                                                     (4,783,551)
  f    Actuarial (Gains)/Losses Due to Changes in Trend Assumptions                                     (53,117,437)
  g    Actuarial Liability as of September 30, 2007 (all Uniformed Services Medicare)            $      516,479,229
  h    Change in Actuarial Liability (line g-line a)                                             $      (21,553,318)

Each year the actuarial liability is expected to increase with normal (or service) cost, decrease with benefit
payments, and increase with interest cost (interest on the liability during the period), resulting in an expected
increase of $36.3 billion in the FY 2007 actuarial liability (line b plus line c plus line d). The September 30, 2007,
actuarial liability includes changes due to new assumptions and actuarial experience. The actuarial gain due to new
medical trend assumptions decreased the liability by $53.1 billion (line f). The Actuarial Gains and Losses Due to
Other Factors, line e, decreased the liability by an additional $4.8 billion. These other factors (line e) also included
a 0.25% decrease in the discount rate ($31.8 billion loss), claim-related changes ($31.0 billion gain), changes in
assumed plan participation rates ($14.2 billion gain) and other actuarial assumption and experience changes ($8.6
billion loss).

FY 2007 Actuarial Liability for the Uniformed Services

The MERHCF liability included Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2007, Medicare liability ($ in thousands) for all Uniformed Services is as follows:

 DoD                                                                                             $       505,103,001
 Coast Guard                                                                                              10,216,768
 Public Health Service                                                                                     1,086,666
 National Oceanic and Atmospheric Administration                                                              72,794
 Total                                                                                           $       516,479,229

FY 2007 Military Service and Other Uniformed Service Contributions

The FY 2007 Military Service and other Uniformed Service contributions to MERHCF ($ in thousands) were as
follows:

 DoD                                                                                             $        11,230,630
 Coast Guard                                                                                                 278,704
 Public Health Service                                                                                        36,288
 National Oceanic and Atmospheric Administration                                                               1,820
 Total                                                                                           $        11,547,442




                                                           41
_______________________________Notes to the Principal Statements

Market Value of Securities for the MERHCF

The market value of the non-marketable market-based securities as of September 30, 2007, totaled $107,798,419
thousand.

FY 2006

Actuarial Cost Method

Actuarial cost method used for the MERHCF liability: Aggregate Entry-Age Normal. As dictated by law, MERHCF
is funded using the aggregate entry-age normal method. This is a method whereby projected retirement costs are
spread over the projected future service of a cohort at the point of entry.



  Medical Trend                                                FY 2005 - FY 2006             Ultimate Rate 2030
  Medicare Inpatient                                                 5.6%                          6.25%
  Medicare Outpatient                                                7.8%                          6.25%
  Medicare Prescriptions (Direct Care)                               8.1%                          6.25%
  Medicare Prescriptions (Purchased Care)                           11.2%                          6.25%

The medical cost trend rate assumptions have a significant effect on the amounts reported. If the assumed rates
increased by one percentage point in each year, that would increase the actuarial present value of projected plan
benefits as of September 30, 2006, by 28%, or approximately $148.7 billion.

FY 2006 Change in MERHCF Actuarial Liability

 ($ in Thousands)

 a.   Actuarial Liability as of 09/30/05 (all Uniformed Services Medicare)                        $      537,397,092
 b.   Expected Normal Cost for FY 2006                                                                    11,043,720
 c.   Expected Benefit Payments for FY 2006                                                               (7,461,017)
 d.   Interest Cost for FY 2006                                                                           34,047,927
 e.   Actuarial (Gains)/Losses Due to Other Factors                                                       42,129,764
 f.   Actuarial (Gains)/Losses Due to Changes in Trend Assumptions                                       (79,124,939)
 g.   Actuarial Liability as of 09/30/06 (all Uniformed Services Medicare)                        $      538,032,547
 h.   Change in Actuarial Liability (line g – line a)                                             $          635,455


Each year the actuarial liability is expected to increase with normal cost, decrease with benefit payments, and
increase with the interest cost. In the absence of actuarial gains and losses or benefit changes, an increase of
$37,630,630 in the actuarial liability was expected during FY 2006 (line b plus line c plus line d). The
September 30, 2006, actuarial liability includes changes due to new assumptions and actuarial experience. The
actuarial gain due to new medical trend assumptions is $(79,124,939) (line f). The Actuarial Gains and Losses Due
to Other Factors (net $42,129,764, line e) include new population data, other actuarial experience being different
from assumed and actuarial assumption changes other than the change in trend assumptions.




                                                         42
_______________________________Notes to the Principal Statements

FY 2006 Actuarial Liability for the Uniformed Services.

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The September 30, 2006, liability
($ in thousands) is broken out between DoD and the other Uniformed Services in the table below.

 DoD                                                                                       $       526,295,514
 Coast Guard                                                                                        10,545,121
 Public Health Service                                                                               1,118,244
 NOAA                                                                                                   73,668
 Total                                                                                     $       538,032,547

FY 2006 Military Service and Other Uniformed Services Contributions

The FY 2006 Military Service and other Uniformed Services contributions to the MERHCF ($ in thousands) were
as follows:

 DoD                                                                                       $        10,841,216
 Coast Guard                                                                                           260,533
 Public Health Service                                                                                  34,477
 NOAA                                                                                                    1,645
 Total                                                                                     $        11,137,871


NOTE 8. FOOTNOTE DISCLOSURES RELATED TO THE STATEMENTS OF NET COST

 Intragovernmental Costs and Exchange Revenue
 ($ in Thousands)

                                                                     FY 2007                      FY 2006

 Intragovernmental Costs                                      $        2,398,537           $        2,280,871
 Public Costs                                                        (16,344,340)                   5,329,733
 Total Costs                                                  $      (13,945,803)          $        7,610,604

 Intragovernmental Earned Revenue                             $      (31,539,307)          $      (31,802,718)
 Public Earned Revenue                                                         0                            0
 Total Earned Revenue                                         $      (31,539,307)          $      (31,802,718)

 Net Cost of Operations                                      $       (45,485,110)          $      (24,192,114)




                                                       43
_______________________________Notes to the Principal Statements

The abnormal balance on the Statement of Net Cost, a negative $13.9 billion, was due to a significant decrease in
the actuarial liability of the MERHCF. This liability is updated annually each September. The $21.6 billion
decrease in the actuarial liability was caused by changes in the actuarial assumptions related to participation trend
rates, medical trend rates, and the assumed discount rate and was offset by $5.2 billion in normal benefit expenses.
The decrease in the actuarial liability was also the primary reason for the $21.7 billion decrease in the Public Costs.

The Statement of Net Cost is unique because its principles are driven on understanding the net cost of programs
and/or organizations that the Federal Government supports through appropriations or other means. This statement
provides gross and net cost information that can be related to the amount of output or outcome for a given program
and/or organization administered by a responsible reporting entity.

Intragovernmental costs and revenue are related transactions made between two reporting entities with the Federal
Government. Public costs and revenues are exchange transactions made between the reporting entity and a
nonfederal entity.

    Earned Revenue for Program Costs                                      FY 2007                      FY 2006
    ($ in Thousands)

1   Uniformed Services Contributions                              $        11,547,442           $      11,137,871
2   Annual Treasury Unfunded Liability                                     15,608,000                  16,612,000
3   Interest on Investments                                                 4,383,865                   4,052,847
    Total                                                         $        31,539,307           $      31,802,718


Line 1. Uniformed Services Contributions represent the amount contributed by Treasury on behalf of the
Uniformed Services (Military Services, U.S. Public Health Service, U.S. Coast Guard, and the National Oceanic and
Atmospheric Administration) at the beginning of each fiscal year. The contribution rates, which are determined by
the DoD Retirement Board of Actuaries, are based on Board-approved per capita normal cost rates and expected
average strengths for the Uniformed Services.

Line 2. Annual Treasury Unfunded Liability Payment. This payment represents the amortization of the unfunded
liability for service performed before October 1, 2002, as well as the amortization of subsequent actuarial gains and
losses.

Line 3. Interest on Investments represents the interest income received by the MERHCF for FYs 2007 and 2006.


NOTE 9. DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY RESOURCES

Apportionment Categories. The Office of Management and Budget Circular No. A-136 specifically requires
disclosure of the amount of direct and reimbursable obligations incurred against amounts apportioned under
categories A (related to a specific period of time); B (related to a specific program or project); and exempt from
apportionment. As of September 30, 2007, the MERHCF reported $7.6 billion in direct, category B obligations. As
of September 30, 2006, the MERHCF reported $1.5 billion in category B apportionment obligations and $6.3 billion
in exempt from apportionment obligations.

Permanent Indefinite Appropriation. Title 10, U.S. Code 1111 provides the MERHCF a permanent indefinite
appropriation with which to finance, on an actuarially sound basis, the liabilities of DoD’s uniformed services
retiree health care programs for Medicare-eligible beneficiaries. These funds are only available to pay for the costs
of the retiree health care program for all eligible beneficiaries of the MERHCF. Amounts that are not needed to pay
the current costs of the Fund may be invested in non-marketable market-based securities purchased through the



                                                          44
_______________________________Notes to the Principal Statements

Department of the Treasury. A permanent indefinite appropriation provides budget authority of an unspecified
amount of money that is available as a result of previously enacted legislation and which does not require new
legislation for the current year.

Use of Unobligated Balances of Budget Authority. The unobligated balances of budget authority for the
MERHCF represent the portion of trust fund receipts collected in the current fiscal year (1) that exceed the amount
needed to pay benefits or other valid obligations and (2) that exceed receipts temporarily precluded from obligation
by law due to a benefit formula or other limitation. The receipts, however, are assets of the MERHCF and are
available for obligations as needed in the future.

Intraentity Transactions. Intraentity transactions have not been eliminated because the statements are presented as
combined and combining.

Reconciliation Differences. There was a difference of $31.2 billion between Appropriations Received on the
Statement of Changes in Net Position (SCNP) and Appropriations Received on the Statement of Budgetary
Resources. Nonrevolving trust fund receipts, immediately available for obligation, are reported as exchange
revenue and included in the cost of operations on the SCNP. For the MERHCF, current receipts total $31.2 billion.
As of September 30, 2006, the difference between the MERHCF’s two statements was $31.5 billion.

The U.S. Treasury issues annual warrants that pay amortized payments for the unfunded actuarial liabilities of the
Fund. The Fund’s annual warrant for FY 2007 totaled $15.6 billion. The Other Defense Organizations General
Fund credits, and subsequently expends, this amount to the MERHCF in accordance with OMB guidance. The
OMB is aware, and approves, of this duplicate reporting. As a result, $15.6 billion is duplicated on the DoD
Agency-wide Statement of Budgetary Resources (SBR). As of September 30, 2006, the Fund’s annual warrant was
$16.6 billion, which was duplicated on the DoD Agency-wide SBR for FY 2006.

In addition, the Fund reports Appropriations Received for contributions that the Army, Navy, and Air Force pay.
The Military Departments also include these amounts in their respective Appropriations Received. For FY 2007,
the Fund reported a total of $11.2 billion for the Military Departments, which is duplicated on the DoD Agency-
wide SBR. As of September 30, 2006, the Fund reported $10.8 billion in contributions from the Military
Departments, which was duplicated on the DoD Agency-wide SBR for FY 2006.




                                                         45
_______________________________Notes to the Principal Statements

NOTE 10. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

($ In Thousands)
                                                                       FY 2007              FY 2006
                                                                                          (As Restated)
                                                                                            (Note 13)
RESOURCES USED TO FINANCE ACTIVITIES
     Budgetary Resources Obligated
       Obligations incurred                                        $     7,575,689    $      7,075,847
       Less: Offsetting receipts                                       (19,653,179)        (20,390,638)
       Net Obligations                                             $   (12,077,490)   $    (13,314,791)

        Other Resources                                                          0                   0

    Total resources used to finance activities                     $   (12,077,490)   $    (13,314,791)

RESOURCES USED TO FINANCE ITEMS NOT PART OF
   THE NET COST OF OPERATIONS
Change in budgetary resources obligated for goods, services, and
benefits ordered but not yet provided:
    Undelivered Orders                                             $        12,662    $         21,378

    Resources that fund expenses recognized in prior periods           (21,532,564)                  0

Total resources used to finance items not part of the Net Cost
of Operations                                                      $   (21,519,902)   $         21,378

Total resources used to finance the net cost of operations         $   (33,597,392)   $    (13,293,413)

COMPONENTS OF THE NET COST OF OPERATIONS
THAT WILL REQUIRE OR GENERATE RESOURCES IN
FUTURE PERIODS
   Components Requiring or Generating Resources in Future
    Periods:
         Other                                                     $             0    $        477,956

Total components of Net Cost of Operations that will require or
generate resources in future periods                               $             0    $        477,956

      Components not Requiring or Generating Resources:
           Other (+/)
               Trust Fund Exchange Revenue                         $   (11,886,128)   $    (11,412,081)
               Other                                                        (1,590)             35,424
        Total components of net cost of operations that will not
          require or generate resources in the current period      $   (11,887,718)   $    (10,898,701)


Net Cost of Operations                                             $   (45,485,110)   $    (24,192,114)




                                                      46
_______________________________Notes to the Principal Statements


For FY 2007, the information previously presented on the Statement of Financing (SOF) is being disclosed as a note
in accordance with the Office of Management and Budget Circular A-136 guidance as updated and revised in June
2007. Comparative information for FY 2006 has been conformed to the current year presentation.

Undelivered orders decreased from $21.4 million to $12.7 million primarily due to the elimination of a $10.0
million over-booking of orders for medical/surgical inpatient and outpatient care offset by a $1.3 million increase in
pharmacy mail orders during FY 2007.

In FY 2007, the Resources That Fund Expenses Recognized in Prior Periods line decreased $22 billion primarily
due to the decrease in the FY 2007 estimated actuarial liability. This change was primarily caused by a revision of
two key economic assumptions: the valuation discount rate and medical trend rates. The discount rate was
decreased by 0.25% (resulting in a $31.8 billion increase). The medical trend rates were updated to reflect recent
medical claims experience and current industry forecasts, medical trend assumptions from the 2007 Medicare
Trustee Report, and incorporating federal drug pricing formulas (resulting in a $53.1 billion decrease). In addition,
the net effect of the expected actuarial liability change, changes due to experience, and non-economic assumptions
reduced the liability by $0.2 billion. In FY 2006, the actuarial liability reflected a slight increase as reflected in the
Components Requiring or Generating Resources in Future Periods –Other line, that was offset by a small decrease
in the incurred-but-not-reported (IBNR) amounts. The IBNR amounts represent an actuarially determined estimate
of incurred liabilities for already-provided covered medical services for which a health care claim had not been
received before the end of the current and prior fiscal year quarters.

Components not Requiring or Generating Resources – Other displays the change in accounts receivable for FY
2007. These amounts represent refund receivables for duplicate or other erroneous MERHCF payments made to
contractors for care of the beneficiaries and for co-payments from MERHCF beneficiaries for prescriptions. This
line also displays the change in bad debts for FY 2006, and FY 2007. These bad debts occurred because of
erroneous payments made to MERHCF beneficiaries or to nonfederal service providers.

Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods report unfunded
expenses that were incurred during FY 2007. The cumulative total of unfunded expenses from all fiscal years is
reported as “Liabilities Not Covered by Budgetary Resources” in Note 5. The Fund has a difference of $45.3
billion between these two lines. The MERHCF had no unfunded expenses in the current year. The amounts in Note
5 represent actuarial liabilities that eventually must be funded. As additional assets become available in the
MERHCF, the unfunded portion of the actuarial liability will decrease.


NOTE 11. BENEFIT PROGRAM EXPENSE

 ($ in Thousands)
                                                                                      FY 2007               FY 2006
 1   Service Cost                                                              $      10,801,492      $    11,043,720
 2   Period Interest on the Benefit Liability                                         34,040,697           34,047,927
 3   Prior (or Past) Service Cost                                                              0                     0
 4   Period Actuarial (Gains) or Losses                                               (4,783,551)          42,129,764
 5   (Gains)/Losses Due to Changes in Medical Trend Assumptions                      (53,117,437)          (79,124,939)
 6   Total                                                                     $     (13,058,799)     $      8,096,472

The benefit program expenses provide components of the change in the actuarial liability from the previous fiscal
year to the current fiscal year. The actuarial liability is calculated using the components of benefit program
expenses as well as the expected benefit payments during the fiscal year. The actuarial liability at the end of the
fiscal year is equal to the liability at the end of the previous fiscal year plus the total benefit program expenses
minus the expected benefit payments during the current fiscal year.



                                                            47
_______________________________Notes to the Principal Statements


The benefit program expense (BPE) includes normal (or service) cost, interest cost, and gains and losses. It
measures the change in the actuarial liability from one year to the next (excluding the impact of benefit payments).
The BPE for FY 2007 was less than the BPE for FY 2006, largely because the new plan participation assumptions
decreased liabilities in FY 2007; whereas the new plan participation assumptions increased liabilities in FY 2006
(line 4). Every year, there is also a “period actuarial gains or losses” component of BPE (line 4), which in FY 2007
contributed a net gain (liability decrease), reflecting the net of losses primarily due to a lower rate discount rate and
revisions to various demographic assumptions, offset by gains primarily due to new plan participation rates and
baseline (2006) claim levels. In FY 2006, this component reflected a net loss (liability increase), reflecting
increases mainly due to new plan participation assumptions and other assumptions and experience, offset by
reductions due to new administrative cost assumptions and claims experience.

In FY 2007, new medical trend rates (line 5) reflected in a gain (liability decrease); however, the new medical trend
rates used in FY 2006 produced a larger gain.

The service cost components and interest cost components of the BPE are generally expected to increase each year.
However, actuarial gains and losses always occur; new assumptions are usually adopted each year; and benefit
changes are possible every year; hence, the BPE can vary by substantial amounts from year to year.


NOTE 12. OTHER DISCLOSURES

The FY 2005 Defense Authorization Act assigns Treasury, vice the Uniformed Services, the responsibility of
paying normal cost contributions into the Fund, starting in FY 2006.

The actuarial liability for Medicare-eligible retiree benefits as of September 30, 2007, and 2006 includes
approximately $75.0 billion (14% of total) and $83.0 billion (15% of total), respectively, of amounts reflecting the
actuarial present value of the projected direct-care costs of benefits to be provided by the military treatment facilities
(MTFs) to eligible participants in the Fund. Additionally, the reported amounts of program revenues and cost for
the year ended September 30, 2007, include approximately $3.7 billion and $1.8 billion, respectively, and for the
year ended September 30, 2006, include approximately $4.0 billion and $1.7 billion, respectively, of amounts
related to the direct-care costs. Such MTF-related amounts of direct-care costs are estimated by the Fund’s
actuaries using data extracted from various Military Service-specific financial, personnel and workload systems
within DoD. With respect to extracted data, the MTFs do not have compliant, transaction-based accounting systems
and, therefore, cannot report the costs of an individual patient’s care.

During the year ended September 30, 2005, a misstatement of approximately $133 million was identified in the
amount of purchased care claims reported for the year ended September 30, 2004. Deficiencies in the controls over
the systems used to process the purchased care claims existed prior to September 30, 2004, and were uncorrected at
that date, resulting in an undetected backlog of unprocessed claims. The identified claims, aggregating $133
million, were re-submitted for processing during the year ended September 30, 2005, resulting in an overstatement
of 2005 reported claims The claims backlog was also inappropriately excluded from the data used in the actuarial
estimate of claims incurred but not reported recorded as a liability as of September 30, 2004. The impact of the
above misstatement on the estimate of Benefits Due and Payable as of September 30, 2004 was estimated to be a
$133 million understatement.




                                                           48
_______________________________Notes to the Principal Statements

However, uncertainties continued to exist during the year ended September 30, 2005, about the completeness of the
population of the aggregate unprocessed claims as of September 30, 2004, and the extent and timing of subsequent
reprocessing. Due to these data integrity concerns, the actuarial estimate of Benefits Due and Payable as of
September 30, 2005, included a margin of conservatism. Analyses of claims information performed during the year
ended September 30, 2006, indicate it is probable that, through the passage of time, all claims that may have been
part of the backlog as of September 30, 2004, have been reprocessed. A retrospective analysis indicates that the
actuarial estimate of Benefits Due and Payable as of September 30, 2005 was overstated by approximately $215
million, with related understatement on recorded claims expense included in Gross Program Costs for the year
ended September 30, 2006.

Pharmaceutical Company Rebates for Retail Pharmacy Support

The Veterans Health Care Act (VHCA) of 1992, codified at 38 U.S.C. 126, established federal ceiling prices of
covered pharmaceuticals. In May 2004, the VHCA was applied to the TRICARE Pharmacy Benefits Program,
specifically, for beneficiaries obtaining covered pharmaceuticals from retail pharmacies. The retail pharmacies
obtain the drugs they dispense at non-discounted prices. The mechanism for payment involved a “Dear
Manufacturer” letter sent to the pharmaceutical manufacturers. The letter required that these manufacturers
calculate a discount rate and pay refunds to DoD for covered drugs purchased at network pharmacies. The letter
demanded refunds as of September 30, 2004.

The Coalition for Common Sense in Government Procurement requested legal review of that letter, and the
Department of Veterans Affairs (DVA) agreed to postpone enforcement pending judicial review. While
enforcement was stayed during judicial review, some manufacturers made voluntary refunds to DoD during this
time period. As of August 31, 2006, the MERHCF had received $23.6 million in FY 2005 and $30.2 million in FY
2006. These refunds are identified by fiscal year and specific pharmaceutical manufacturer.

By decision dated September 11, 2006, the Court of Appeals for the Federal Circuit set aside the “Dear
Manufacturer” letter and, on procedural grounds, ruled against the government’s position in the federal drug pricing
litigation. As a result of the Court decision, the TRICARE Management Activity (TMA) was advised by counsel to
suspend indefinitely the quarterly refund invoicing to manufacturers involving network retail pharmacy drugs. The
VA General Counsel requested the Department of Justice not to seek rehearing of the Court’s decision. Therefore,
TMA General Counsel advised the MERHCF to reimburse any refunds received in FY 2005 and FY 2006. A
nonfederal payable to the public of $53.8 million was established 4th Quarter, FY 2006. Full reimbursements were
made to the affected pharmaceutical manufacturers during FY 2007.

NOTE 13. RESTATEMENT

In accordance with FASAB guidance, the OMB and the U. S. Treasury are responsible for issuing budgetary
reporting guidance for Federal entities to use in the preparation of the Statement of Budgetary Resources and the
Reconciliation of Net Cost of Operations to Budget. During the preparation of the FY 2007 financial statements,
the MERHCF was advised that, under the OMB and U. S. Treasury guidance, certain offsetting receipts previously
considered as distributed to DoD should be considered undistributed receipts for purposes of the appropriate
presentation of budgetary balances at the DoD and government-wide levels. As the issuance of the FY 2007
financial statements was imminent, the MERHCF corrected the classification of the offsetting receipts for the FY
2007 financial statements and disclosures and has corrected the error in the presentation of the FY 2006
comparative statements and disclosures as discussed in the subsequent paragraph.

For the FY 2006 statements, the classification of intragovernmental receipt amounts of approximately $11.4 billion
was corrected from distributed to undistributed, reducing the amount of previously reported offsetting receipts in the
FY 2006 Statement of Budgetary Resources and in Note 10, and increasing the amount of previously reported Trust
Fund Exchange Revenue in Note 10 by the same amount. There was no impact on the MERHCF’s net position or
net cost of operations for FY 2006.

Details of the effects of the FY 2006 restatement are displayed in the following table.



                                                          49
_______________________________Notes to the Principal Statements


FY 2006
Effects of Restatement                                         As Originally    Effect of
($ in Thousands)                              As Restated       Reported        Change

Statement of Budgetary Resources
  Distributed Offsetting Receipts              $(20,390,638)   $(31,802,719)   $ 11,412,081
   Total Net Outlays                          $ (13,324,082)   $(24,736,163)   $ 11,412,081

Reconciliation of Net Cost of
Operations to Budget
 Less: Offsetting receipts                    $(20,390,638)    $(31,802,719)   $ 11,412,081
 Net Obligations                              $(13,314,791)    $(24,726,872)   $ 11,412,081

Total resources used to finance activities    $(13,314,791)    $(24,726,872)   $ 11,412,081

Total Resources used to Finance the Net
Cost of Operations                            $(13,293,413)    $(24,705,494)   $ 11,412,081

 Trust Fund Exchange Revenue                  $(11,412,081)    $           0   $(11,412,081)

Total components of Net Cost of
Operations that will not require or
generate resources in the current period      $(10,898,701)    $     513,380   $(11,412,081)




                                             *****




                                              50
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND


  OTHER ACCOMPANYING
     INFORMATION




            51
      ___________________________Other Accompanying Information


                                                    TABLE 1

                           MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                                 ACTUARIAL STATUS INFORMATION
                                        SEPTEMBER 30, 2007

                                                 ($ In Thousands)

                                                                September 30, 2007             September 30, 2006
1.   Present value of future benefits

     a. Current inactives                                   $          316,898,580         $          330,842,715
     b. Active duty personnel 1                                        156,849,172                    160,999,865
     c. Non-retired reservists                                         121,155,895                    128,420,451
     d. Total                                               $          594,903,647         $          620,263,031

2.   Present value of future normal cost contributions                 (78,424,418)                   (82,230,484)

3.   Actuarial accrued liability (Note 7)                   $          516,479,229         $          538,032,547

4.   Assets 2                                                          107,454,223                     83,664,045

5.   Unfunded accrued actuarial liability 3                 $          409,025,006         $          454,368,502




________________________________

1       The future benefits of active duty personnel who are projected to retire as reservists are counted on line 1-
        c.

2       The assets available to pay benefits are determined using the amortized cost method (book value) of
        valuation.

3       The unfunded accrued liability does not include $625.4 million and $604.7 million for the estimated
        Incurred But Not Reported (IBNR) liabilities as of September 30, 2007, and 2006, respectively, as
        presented in the Balance Sheets as “Benefits Due and Payable,” and as discussed in Note 7, “Military
        Retirement and Other Federal Employment Benefits.”




                                                         52
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND


 INDEPENDENT AUDITORS’
       REPORTS




            53
                                                                                  Deloitte & Touche LLP
                                                                                  Suite 800
                                                                                  1750 Tysons Boulevard
                                                                                  McLean, VA 22102-4219
                                                                                  USA

                                                                                  Tel: 703-251-1000
                                                                                  Fax: 703-251-3400
                                                                                  www.us.deloitte.com


INDEPENDENT AUDITORS’ REPORT


To:

The Inspector General of the Department of Defense,
The Deputy Under Secretary of Defense for Program Integration,
The Acting Deputy Assistant Secretary of Defense, Health Budgets and Financial Policy, and
The Audit Committee of the Department of Defense
 Medicare-Eligible Retiree Health Care Fund


We have audited the accompanying balance sheets of the Department of Defense (“DoD”)
Medicare-Eligible Retiree Health Care Fund (the “Fund”) as of September 30, 2007 and 2006,
and the related statements of net cost, changes in net position, and budgetary resources for the
years then ended. These financial statements are the responsibility of the Fund’s management.
Our responsibility is to express an opinion on these financial statements based on our audits.

Except as discussed in the following paragraphs, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America, the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States, and the requirements of Office of Management and Budget
(“OMB”) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those
standards and the OMB Bulletin require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements, assessing the accounting
principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis
for our opinion.

We were unable to obtain sufficient, appropriate audit evidence from compliant, transaction-
based accounting systems in support of the costs of direct care provided by the DoD-managed
Military Treatment Facilities (MTFs). As discussed in Note 12 to the financial statements, the
actuarial liability for Medicare-eligible retiree benefits as of September 30, 2007 and 2006
includes approximately $75 billion (14% of total) and $83 billion (15% of total), respectively, of
amounts reflecting the actuarial present value of the projected direct-care costs of benefits to be
provided by the MTFs to eligible participants in the Fund. Additionally, the reported amounts of
program revenues and cost for the year ended September 30, 2007, include approximately $3.7
billion and $1.8 billion, respectively, and for the year ended September 30, 2006, include

                                                                                Member of
                                                                                Deloitte Touche Tohmatsu




                                                57
November 30, 2007


approximately $4.0 billion and $1.7 billion, respectively, of amounts related to the direct-care
costs. Such MTF-related amounts of direct-care costs are estimated by the Fund’s actuaries
using data extracted from various service-specific financial, personnel and workload systems
within DoD. With respect to extracted data, the MTFs do not currently have compliant,
transaction-based accounting systems. While activity-based costing techniques are used to
estimate the program costs related to the MTFs, the costs being allocated cannot be related to
specific appropriations, and there is insufficient evidence that adequate controls exist and have
been implemented to ensure the completeness, validity, recording and cut-off of the costs
reported. Additionally, there is insufficient evidence that adequate controls exist and have been
implemented to ensure the timeliness and accuracy of the medical record coding processes at
the MTFs, a significant factor in the allocation processes. We were not able to satisfy ourselves
as to the direct-care component of the reported amount of the actuarial liability for Medicare-
eligible retiree benefits by other auditing procedures.

As discussed in Note 12 to the financial statements, during the year ended September 30,
2005, a misstatement was identified in the amount of purchased care claims reported for the
year ended September 30, 2004. Deficiencies in the controls over the systems used to process
the purchased care claims existed prior to September 30, 2004, and were uncorrected at that
date, resulting in an undetected backlog of unprocessed claims. The identified claims were re-
submitted for processing during the year ended September 30, 2005, resulting in an
overstatement of 2005 reported claims The claims backlog was also inappropriately excluded
from the data used in the actuarial estimate of claims incurred but not reported recorded as a
liability as of September 30, 2004.

However, uncertainties continued to exist during the year ended September 30, 2005, about the
completeness of the population of the aggregate unprocessed claims as of September 30,
2004, and the extent and timing of subsequent reprocessing. Due to these uncertainties, the
actuarial estimate of claims incurred but not reported as of September 30, 2005, included a
margin of conservatism. Analyses of claims information performed during the year ended
September 30, 2006, indicated it was probable that, through the passage of time, all claims that
may have been part of the backlog as of September 30, 2004, had been reprocessed. A
retrospective analysis indicated that the actuarial estimate of claims incurred but not reported as
of September 30, 2005 was overstated by approximately $215 million, with related impacts on
recorded claims expense for the year ended September 30, 2006.

We were not able to obtain sufficient details about the recorded transactions related to the
claims backlog necessary to determine the complete budgetary and proprietary accounting
impacts on the MERHCF financial statements for the year ended September 30, 2006, beyond
the estimated understatements and overstatements identified above, nor were we able to satisfy
ourselves by means of other auditing procedures.

In our opinion, except for the effects on the financial statements of (1) the amounts related to
the Fund’s direct-care costs, if any, as might have been determined to be necessary had we
been able to obtain sufficient evidence regarding the direct-care component of the actuarial
liability for Medicare-eligible retiree benefits; and (2) the complete population, and budgetary
and proprietary accounting impacts, of the claims backlog transactions existing as of September
30, 2004 and subsequently reprocessed; such financial statements present fairly, in all material
respects, the financial position of the DoD Medicare-Eligible Retiree Health Care Fund as of
September 30, 2007 and 2006, and its net cost of operations, changes in net position, and
budgetary resources for the years then ended in conformity with accounting principles generally
accepted in the United States of America.


                                                58
November 30, 2007



As discussed in Note 13 to the financial statements, the accompanying 2006 financial
statements have been restated. The restatement was for the correction of an error in the
originally issued financial statements, on which we issued our report dated November 1, 2006.
Such report should no longer be relied upon as a result of the material misstatement in the
previously-issued FY 2006 financial statements and is withdrawn and replaced by this updated
report on the restated financial statements.

Our audits were conducted for the purpose of forming an opinion on the basic financial
statements taken as a whole. The accompanying “Management’s Discussion & Analysis” and
“Other Accompanying Information,” are not required parts of the basic financial statements but
are supplementary information required by accounting principles generally accepted in the
United States of America, OMB Circular A - 136, Financial Reporting Requirements, and the
Federal Accounting Standards Advisory Board. This supplementary information is the
responsibility of the Fund’s management. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of the supplementary information. However, such information have not been
subjected to the auditing procedures applied in our audits of the basic financial statements and
accordingly, we do not express an opinion on it.

In accordance with Government Auditing Standards, we have also issued our report dated
November 30, 2007 on our consideration of the Fund’s internal control over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, contracts, and
agreements and other matters. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards, and should be considered in assessing the results of our audits.




November 30, 2007




                                                59
                                                                                  Deloitte & Touche LLP
                                                                                  Suite 800
                                                                                  1750 Tysons Boulevard
                                                                                  McLean, VA 22102-4219
                                                                                  USA

                                                                                  Tel: 703-251-1000
                                                                                  Fax: 703-251-3400
                                                                                  www.us.deloitte.com




INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

To:

The Inspector General of the Department of Defense,
The Deputy Under Secretary of Defense for Program Integration,
The Acting Deputy Assistant Secretary of Defense, Health Budgets and Financial Policy, and
The Audit Committee of the Department of Defense
 Medicare-Eligible Retiree Health Care Fund


We have audited the financial statements of the Department of Defense (“DoD”) Medicare-
Eligible Retiree Health Care Fund (the “Fund”) as of and for the year ended September 30,
2007, and have issued our report thereon dated November 30, 2007. We conducted our audit
in accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States, and the requirements of Office of Management
and Budget (“OMB”) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the Fund’s internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we do not express an opinion on the Fund’s
internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we have identified certain matters involving the
Fund’s internal control over financial reporting that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the Fund’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the Fund’s financial statements that is more than inconsequential will not be
prevented or detected by the Fund’s internal control over financial reporting. We consider the


                                                60
November 30, 2007


matters discussed in the following paragraphs to be significant deficiencies.

During our audit of the Fund’s financial statements, we identified deficiencies related to the
internal control over the preparation, analysis, and monitoring of financial information to support
the efficient and effective preparation of financial statements. Because of the deficiencies
noted, we believe that the Fund’s financial management system does not meet the
requirements of an integrated financial management system as defined in OMB Circular A-127,
with respect to “consistent internal control over data entry, transaction processing and
reporting.” We also believe that the Fund is not in compliance with the system design
requirements sufficient to comply with internal and external reporting requirements, including, as
necessary, the requirements for financial statements prepared in accordance with the form and
content prescribed by OMB and reporting requirements prescribed by Treasury, and to monitor
the financial management system to ensure integrity of financial data.

As defined in OMB Circular A – 127, “a financial management system encompasses automated
and manual processes, procedures, controls, data, hardware, software, and support personnel
dedicated to the operation and maintenance of system functions.” Such financial management
systems shall be designed to provide for effective and efficient interrelationship between
software, hardware, personnel, procedures, controls, and data contained within the systems.
These integrated systems shall have the following characteristics: (1) common data elements;
(2) common transaction processing; (3) consistent internal control over data entry, transaction
processing and reporting; and (4) efficient transaction entry.

With respect to system requirements in the area of financial reporting, OMB Circular A – 127
requires that an “agency financial management system shall be able to provide financial
information in a timely and useful fashion to (1) support management’s fiduciary role; (2) support
the legal, regulatory and other special management requirements of the agency; (3) support
budget formulation and execution functions; (4) support fiscal management of program delivery
and program decision making; (5) comply with internal and external reporting requirements,
including, as necessary, the requirements for financial statements prepared in accordance with
the form and content prescribed by OMB and reporting requirements prescribed by Treasury;
and (6) monitor the financial management system to ensure integrity of financial data.”

Our assessment is based upon various factors noted during our audit. For example, we noted
that:

   1. The actuarial liability for Medicare-eligible retiree benefits as of September 30, 2007 and
      2006, includes approximately $75 billion (14% of total) and $83 billion (15% of total),
      respectively, of amounts reflecting the actuarial present value of the projected direct care
      costs of benefits to be provided by the Military Treatment Facilities (“MTFs”), managed
      by the Services, to eligible participants in the Fund. Additionally, the reported amounts
      of program revenues and cost for the year ended September 30, 2007, include
      approximately $3.7 billion and $1.8 billion, respectively, and for the year ended
      September 30, 2006, include approximately $4.0 billion and $1.7 billion, respectively, of
      amounts related to the direct care costs.

       Such MTF-related amounts of direct care costs are estimated by the Fund’s actuaries
       and others using data extracted from various service-specific financial, personnel and
       workload systems within DoD. With respect to extracted data, the MTFs do not currently
       have compliant, transaction-based accounting systems, applying common and
       consistent business rules, in a manner envisioned by the DoD’s planned Standard


                                                61
November 30, 2007


      Financial Information Structure (“SFIS”). While activity-based costing techniques are
      used to estimate the program costs related to the MTFs, the costs being allocated
      cannot be related to specific appropriations, and there is insufficient evidence that
      adequate controls exist and have been implemented to ensure the completeness,
      validity, recording and cut - off of the costs reported. Additionally, there is insufficient
      evidence that adequate controls exist and have been implemented to ensure the
      timeliness and accuracy of the medical record coding processes at the MTFs, a
      significant factor in the allocation processes.

      Therefore, the procedures in place to determine the allocated costs of direct care
      provided by the MTFs are not adequate to ensure presentation of the direct care costs in
      conformity with accounting principles generally accepted in the United States of
      America.

      We continue to recommend the implementation of the necessary management control
      and reconciliation processes with respect to direct care, as well as the design of
      improved financial management information systems as part of the overall DoD business
      transformation efforts.

   2. The costs of health care provided directly by the DoD for Fund participants and
      beneficiaries represent significant input to the development of the actuarially determined
      health care liabilities of the Fund, as well to the determination of amounts contributed by
      the Services for their active duty participants. These costs are incurred in the multitude
      of Military Treatment Facilities (“MTFs”) managed by the Services in various locations.
      The Fund makes prospective payments to the Services based on estimates of these
      direct care costs in order to support the operations of the MTFs on an ongoing basis.

      The health care cost data from the MTFs provided for the estimation process is
      aggregated or derived from information in both financial and non-financial systems within
      the Services that have not been audited. The MTF–level data is based upon budget
      execution processes, rather than accrual-based accounting. There is insufficient
      evidence that appropriate and consistent cut-off of accounting activity occurs at the
      MTF-level. During 2007, the Fund had not yet implemented appropriate and sufficient
      levels of management control and reconciliation processes to ensure the adequacy and
      completeness of the data required for its financial reporting and actuarial valuation
      processes.

      We did note that the Fund performs annual retrospective reconciliation reviews of the
      MTF level-of-effort data, for the purposes of comparing the prospective payments
      provided to the MTFs for care of the Fund’s participants and beneficiaries, versus the
      results of the budget execution process. The results of the reconciliations are used in
      the determination of prospective budgetary requirements to support the MTFs’
      operations, as required by DoD Instructions.

      We continue to recommend the implementation of the necessary management control
      and reconciliation processes with respect to direct care, as well as the design of
      improved financial management information systems as part of the overall DoD business
      transformation efforts.

   3. Since 2005, the Fund has undertaken a number of improvement initiatives in connection
      with the DoD Financial Improvement and Audit Readiness (“FIAR”) process managed


                                              62
November 30, 2007


      under the Office of the Under Secretary of Defense - Comptroller (“OUSD-C”). The
      initiatives are intended to address the necessary corrective actions with respect to the
      identified deficiencies in the direct care cost processes and medical record coding, as
      discussed above. From discussions with TMA and their support contractor, we
      understand that efforts have been undertaken to document and test certain direct care
      related reconciliation processes from the MTF level through to the financial statement
      level for the Services. However, as of September 30, 2007, the process and procedures
      have not yet been finalized for all Services nor deployed to all MTFs.

      We continue to recommend the implementation of the necessary management control
      and reconciliation processes with respect to direct care, as well as the design of
      improved financial management information systems as part of the overall DoD business
      transformation efforts.

   4. Certain general and application electronic data processing (“EDP”) controls at certain
      computer processing locations used by the Fund do not support the reliable processing
      of financial information within the related business cycles. Our review disclosed
      deficiencies in the design or operation of controls related to: (1) EDP security policies,
      procedures, and configurations, (2) business continuity arrangements; and (3) network
      and database change management activities, that could adversely affect the Fund’s
      ability to record, process, and summarize its financial information and protect sensitive
      data in accordance with all appropriate requirements.

      Because disclosure of detailed information about EDP weaknesses may further
      compromise controls, we are providing no further details here. Instead, as requested by
      the Office of Inspector General, the specifics will be presented in a separate, limited
      distribution report concerning other control deficiencies involving the Fund’s internal
      control over financial reporting and other matters that we identified during our audit.

   5. During the preparation of the Fund’s year-end financial statements, the DoD Trust Fund
      Accounting Division (“TFAD”) was notified by the DoD’s Audited Financial Statement
      (“AFS”) Division, part of the DoD’s Office of the Under Secretary of Defense –
      Comptroller (“OUSD-C”) that, based on the reconciliation of DoD budgetary accounts
      with Treasury, certain offsetting receipt accounts of the Fund for FY 2006 and FY 2007
      should be reclassified. The change in the U.S. Treasury guidance for offsetting receipts,
      which was effective for FY 2006, affected both the Statement of Budgetary Resources
      and the disclosure of financing activities. The correct classification of offsetting receipts
      is significant to the accurate reporting of intragovernmental activity for the DoD and U.S.
      Government financial statements. Therefore, the Fund has restated the FY 2006
      financial statements and related disclosures to correct the presentation error.

      While the DoD utilizes certain standardized processes to facilitate the preparation of
      financial statements and budgetary reports in conformity with the United States Standard
      General Ledger (“SGL”) accounts and standard attributes, it appears that certain of the
      Fund’s account attributes were not updated for the change in U.S. Treasury guidance for
      offsetting receipts in FY 2006 or FY 2007. There were insufficient controls in place
      within TFAD in order to identify and implement changes in financial and budgetary
      reporting guidance on a timely basis. There were insufficient management review
      processes in place within HA/TMA in order to detect the incorrect financial statement
      presentation.



                                               63
November 30, 2007


A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control over financial reporting. Our
consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control that might be significant deficiencies and, accordingly, would not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses.      However, of the significant deficiencies noted above, we consider the
observations with respect to direct-care costs discussed at items 1., and 2., and the observation
with respect to offsetting receipt accounts at item 5., to be material weaknesses.

With respect to internal control relevant to data that support reported performance measures on
page 6 of Management's Discussion and Analysis accompanying the financial statements, we
obtained an understanding of the design of significant internal control relating to the existence
and completeness assertions, as required by OMB Bulletin No. 07-04. Our procedures were not
designed to provide assurance on the internal control over reported performance measures and,
accordingly, we do not express an opinion on such control.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Fund’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and agreements, noncompliance with which could have a direct
and material effect on the determination of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 07-04. However, providing an opinion on
compliance with those provisions was not an objective of our audit and accordingly, we do not
express such an opinion. The results of our tests disclosed instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards and the
requirements of OMB Bulletin No. 07-04, and which are summarized in the following
paragraphs:

   1. The EDP systems utilized by the Fund are not compliant with OMB Circular A-127,
      Financial Management Systems. The Circular requires that federal financial systems
      provide complete, reliable, consistent and useful information on a timely basis. Our
      procedures identified deficiencies in the design and operation of certain EDP controls
      that may increase the risk of unauthorized access, modification, or loss of sensitive
      programs and data which could compromise the ability of the systems to provide reliable
      financial data.

   2. While the general ledger system utilized by the Fund is compliant with the United States
      Standard General Ledger (“SGL”), it is not transaction-based nor is it derived from an
      integrated financial system.

   3. The financial management systems utilized by the Fund do not comply substantially with
      the requirements for Federal financial management systems set forth in OMB Circular A-
      130, in that they do not fully, efficiently and effectively support the Fund’s efforts to:

           ◊   Prepare financial statements and other required financial and budget reports
               using information generated by the financial management systems;
           ◊   Provide reliable and timely financial information for managing current operations;



                                               64
November 30, 2007


           ◊   Account for assets reliably, so that they can be properly protected from loss,
               misappropriation, or destruction; and
           ◊   Do all of the above in a way that is consistent with Federal accounting standards
               and the Standard General Ledger

       We believe these conditions, in the aggregate, result in significant departures from the
       requirements of OMB Circulars A-123, A-127, and A-130.

The significant deficiencies and material weaknesses identified above with respect to the
internal control over financial reporting discussed above indicate that the Fund is not in full
compliance with the requirements of OMB Circulars A-123 and A-127 and the FMFIA.

Views of Responsible Officials

We provided a draft of this report to representatives of the Inspector General of the Department
of Defense, the Audit Committee, and the management of the Fund, who then provided us with
technical comments, which we incorporated as appropriate. The Audit Committee and the
management of the Fund expressed their continuing commitment to address the deficiencies
identified in this report.

Distribution

This report is intended solely for the information and use of the Inspector General of the
Department of Defense, the Audit Committee and management of the Fund, other Defense
Organizations, the Office of Management and Budget, the Government Accountability Office,
and the United States Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 30, 2007


                                           ******




                                               65
